<html>
<title> - NEW ALLEGATIONS AGAINST GSA ADMINISTRATOR LURITA DOAN: RETALIATION AGAINST GOVERNMENT OFFICIALS COOPERATING WITH INVESTIGATORS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
  NEW ALLEGATIONS AGAINST GSA ADMINISTRATOR LURITA DOAN: RETALIATION 
      AGAINST GOVERNMENT OFFICIALS COOPERATING WITH INVESTIGATORS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2007

                               __________

                           Serial No. 110-37

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
40-149                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 13, 2007....................................     1
Statement of:
    Doan, Lurita A., Administrator, General Services 
      Administration.............................................    17
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    14
    Doan, Lurita A., Administrator, General Services 
      Administration, prepared statement of......................    20
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, May 24, 2007 Washington Post article.....    30
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California:
        Memorandum dated March 29, 2002..........................    70
        Prepared statement of....................................     4


  NEW ALLEGATIONS AGAINST GSA ADMINISTRATOR LURITA DOAN: RETALIATION 
      AGAINST GOVERNMENT OFFICIALS COOPERATING WITH INVESTIGATORS

                              ----------                              


                        WEDNESDAY, JUNE 13, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Cummings, Kucinich, Davis 
of Illinois, Tierney, Clay, Watson, Lynch, Braley, Norton, 
Sarbanes, Welch, Davis of Virginia, Burton, Shays, Mica, 
Souder, Platts, Duncan, Turner, Issa, Foxx, Bilbray, Sali, and 
Jordan.
    Staff present: Phil Schiliro, chief of staff; Kristin 
Amerling, general counsel; Karen Lightfoot, communications 
director and senior policy advisor; David Rapallo, chief 
investigative counsel; John Williams, deputy chief 
investigative counsel; David Leviss, senior investigative 
counsel; Steve Glickman and Susanne Sachsman, counsels; Molly 
Gulland, assistant communications director; Earley Green, chief 
clerk; Teresa Coufal, deputy clerk; Matt Siegler, special 
assistant; Caren Auchman, press assistant; Zhongrui ``JR'' 
Deng, chief information officer; Leneal Scott, information 
systems manager; Kerry Gutknecht, Miriam Edelman, and Bret 
Schothorst, staff assistants; David Marin, minority staff 
director; Larry Halloran, minority deputy staff director; Keith 
Ausbrook, minority general counsel; Ellen Brown, minority 
legislative director and senior policy counsel; John Brosnan, 
minority senior procurement counsel; Steve Castor and A. Brooke 
Bennett, minority counsels; Christopher Bright, Allyson 
Blandford, and Kristina Husar, minority professional staff 
member; John Cuaderes and Larry Brady, minority senior 
investigators and policy advisors; Patrick Lyden, minority 
parliamentarian; Brian McNicoll, minority communications 
director; Benjamin Chance, minority clerk; and Meredith 
Liberty, minority staff assistant.
    Chairman Waxman. The meeting of the committee will come to 
order.
    This hearing of the House Oversight Committee wants to 
welcome our witness, Lurita A. Doan, the Administrator of the 
General Services Administration. This hearing is not being held 
to reinvestigate Ms. Doan's violations of the Hatch Act. Our 
hearing on March 28th and the subsequent investigation by the 
Office of Special Counsel provided ample record to assess Ms. 
Doan's compliance with this important law. This hearing will 
focus on other issues.
    First, there are serious questions whether Ms. Doan 
testified truthfully during our first hearing. And there are 
also new allegations that Ms. Doan tried to intimidate and 
retaliate against Federal employees who cooperated with this 
committee's investigation. Both issues should be of great 
concern to all members of our committee.
    When our committee learned earlier this year that Ms. Doan 
may have violated the Federal Hatch Act by asking GSA political 
appointees how they could help our Republican candidates in 
upcoming elections, we appropriately initiated an 
investigation. As part of this investigation, six GSA political 
appointees were asked to give transcribed interviews or 
depositions to this committee. All six agreed to come before 
the committee voluntarily and all six told us about a political 
presentation at GSA Headquarters in January by Scott Jennings, 
Karl Rove's deputy at the White House.
    During that presentation, Mr. Jennings identified 20 
Democratic Members as targets in 2008. According to all six 
employees, Ms. Doan then asked the GSA political appointees 
gathered for the presentation how could they help ``our 
candidates'' in the upcoming elections.
    It was not easy for these GSA employees to come before our 
committee. Like Ms. Doan, they, too, were Republicans. They 
were political appointees. They knew their statements would be 
evidence that their boss violated the Hatch Act. And like all 
employees, they must have feared the potential consequences. 
But they knew that they had an obligation to tell the truth, 
and they did.
    As a result of the committee's investigation and hearing, 
we determined, conclusively, in my opinion, that Ms. Doan 
solicited her employees at GSA to engage in partisan political 
activity on Government property. A clear violation of the 
Federal Hatch Act.
    After the March 28th hearing, the Office of Special 
Counsel, which enforces the Hatch Act, interviewed Ms. Doan 
about her conduct. When Ms. Doan was asked about the six GSA 
officials who cooperated with this committee's investigation, 
this is what Ms. Doan told the Special Counsel: ``There's not a 
single one of those who did not have somewhere in between a 
poor to totally inferior performance.''
    In her written testimony, Ms. Doan says that she thought 
her remarks were going to be treated confidentially by the 
Office of Special Counsel. In fact, she blames the Special 
Counsel for victimizing the employees by disclosing her 
disparaging comments.
    Well, there are just two problems with Ms. Doan's position.
    First, her statements about her GSA colleagues appear to be 
false. Ms. Doan refused to provide the employees' personnel 
records to this committee. But the Office of Special Counsel 
did review the employment records and found that all the 
employees had satisfactory or better performance. It is wrong 
for a Federal agency head to make false or misleading 
accusations against Federal employees. It does not matter 
whether the official expects confidentiality or not. 
Unsubstantiated accusations are always wrong.
    Second, Ms. Doan did not just disparage the employees. 
Under oath, she told the Special Counsel ``until extensive 
rehabilitation of their performance occurs, they will not be 
getting promoted and will not be getting bonuses or special 
awards or anything of that nature.'' Apparently Ms. Doan's 
position is that it is fine for her to retaliate against her 
employees by denying them promotions, bonuses, and awards, so 
long as she does so in secret and no one knows about it.
    Well I think she is wrong. And so long as I am chairman of 
this committee, we are not going to look the other way when 
there is credible evidence that Federal officials are 
threatening their employees, especially when these employees 
are being threatened for participating and volunteering 
information to the Congress of the United States. We passed, I 
think unanimously, the Whistleblower Protection Act because we 
value Federal employees being able to come forward without fear 
of retaliation so that we can learn about what is going on in 
Federal agencies when they misuse their power in those 
agencies, when they abuse the taxpayers' trust, when they waste 
taxpayers' dollars.
    Our committee has a fundamental obligation to stand up for 
Federal employees who cooperate with investigators and tell us 
the truth. And we have an equal obligation, indeed, a moral 
responsibility to investigate and hold Federal officials to 
account if they threaten to withhold bonuses and deny 
promotions to employees who tell the truth to the Congress. I 
am amazed that anyone would think we should not do that.
    I am equally amazed that a few Members apparently do not 
believe it matters very much whether Ms. Doan testified 
truthfully during her March 28th hearing. I have even heard 
some Members say so what if she did political activity on 
Government property. What is the big deal? Well, violating the 
Hatch Act is a big deal. Fortunately, most members of this 
committee want to get to the truth, want to make sure that 
Federal employees do not face threats when they act with 
integrity and honesty.
    That is what this hearing is about. I look forward to 
hearing more today from Ms. Doan.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T0149.001

[GRAPHIC] [TIFF OMITTED] T0149.002

[GRAPHIC] [TIFF OMITTED] T0149.003

[GRAPHIC] [TIFF OMITTED] T0149.004

[GRAPHIC] [TIFF OMITTED] T0149.005

[GRAPHIC] [TIFF OMITTED] T0149.006

    Chairman Waxman. I am going to recognize the ranking member 
of this committee, Mr. Davis. We will not have any other 
opening statements. I want to try out something new for our 
committee's deliberation. Mr. Davis, as the ranking member, 
will have a bank of 10 minutes time to control during the 
process of the questioning to either use or yield to his 
Members. We will have another bank of 10 minutes and we will be 
able to use it or yield it to different of our colleagues, 
interspersed in the ordinary proceedings of the committee. To 
start the questioning, we are going to do a round of 10 minutes 
on each side.
    Mr. Davis, I want to recognize you for your statement.
    Mr. Davis of Virginia. Thank you, Mr. Chairman. With all 
due respect, I cannot for the life of me figure out what we are 
doing here this morning. The committee and its many 
subcommittees held just one hearing this week, and this is the 
topic we have chosen. Somehow we have lost track of the Good 
Government agenda that we pledged to pursue. Maybe that is one 
of the reasons the Los Angeles Times yesterday showed Congress 
with lower ratings than the administration. For the first time, 
the Speaker's numbers are higher unfavorable than favorable.
    The majority says they are concerned about retaliation 
against Government officials who have cooperated with 
investigators. But no such retaliation ever occurred. The real 
retaliation here is against an entrepreneurial African-American 
woman who, stop the presses, supports the administration that 
appointed her and is paying the price for trying to make her 
organization a better, more efficient and effective place.
    Today's hearing is a gross misuse of committee resources, 
built on an unprofessional and seemingly preordained report 
from the Office of Special Counsel. It is a farce premised on a 
sham. There are so many flaws and injustices and fabrications 
here I hardly know where to begin. But let me reel off just a 
few.
    Administrator Doan was obligated to cooperate with 
investigators when she made the comments the chairman just 
described. She did not come forward and volunteer. She was 
obligated to answer these questions. She was compelled to say 
what she believed, under oath. And she did so after assurances 
of confidentiality were given to her by the Office of Special 
Counsel lawyers.
    Nevertheless, before the Administrator had a chance to 
respond to the OSC report, a draft version was given to the 
Washington Post, a version that only OSC possessed and only the 
Office of Special Counsel could have leaked. I think it is 
preposterous that we are again inserting ourselves into 
unfinished proceedings, this time an unfinished Office of 
Special Counsel matter. Under the rules, the Office of Special 
Counsel makes their recommendation to the White House and the 
White House responds. And here we are in the middle of this.
    But if that is our choice, then our time would be far 
better spent looking at the unfair investigation OSC conducted 
and the special legal reasoning in the OSC report. Lurita Doan 
was not afforded basic due process rights, such as an 
opportunity to review the testimony submitted against her. 
Never saw it. Until this week, she was denied access to the 
transcript of her own testimony, 10 hours of testimony, to OSC 
investigators to prepare for this hearing.
    The Office of Special Counsel report is remarkably harsh 
and hyperbolic and extremely short on support. The report 
really cites no evidence. There are no footnotes, no exhibits. 
They simply say that they interviewed over 20 individuals in 
attendance at the Jennings presentation. But the report quotes 
testimony from zero attendees. Why did they not talk to all the 
attendees? How did they choose which ones to talk to and which 
ones not to?
    The shoddy evidentiary support is reflected in the report's 
Hatch Act analysis. The report fails to identify a single 
election or candidate that Administrator Doan sought to assist, 
because there were none. In fact, there was no election going 
on. The report asserts, without any analysis or finding, that 
her statement ``how can we help our candidates'' solicited or 
directed employees to engage in partisan political activity. 
This was a question that she asked. I am sure in retrospect she 
wishes she had not.
    She just asked, all right, you have given us this 
presentation, how do we help our candidates. It could have been 
ringing doorbells, it could have been making phone calls after 
hours at phone banks. No effort here to say how do we use the 
agency to help our candidates. No allegations that happened. No 
statements that happened. Just hyperbole and interpretation 
from the other side and from the Office of Special Counsel. Not 
one employee responded with any proposal to help any candidate 
on any election. So it never happened.
    How then is her question in itself a solicitation? What if 
the question was heard to mean what can we do to legally help 
our candidates. Does that change it? A 2002 opinion by the same 
Office of Special Counsel advised: ``The Hatch Act does not 
purport to prohibit all discourse by Federal employees on 
political subjects or candidates in a Federal building or while 
on duty.'' Yet Administrator Doan's off-hand comment, without 
any followup action, is found to be a solicitation. By that 
standard, saying ``God bless America'' at work could be a 
violation of the Establishment Clause.
    It is clear the Office of Special Counsel recognized they 
were short on evidence. So they resorted instead to absurd 
hyperbole. They said, ``One can imagine no greater violation of 
the Hatch Act,'' the report reads. Well I can. OSC clearly 
lacks any imagination. How about an employee who actually uses 
the Government e-mail system to send campaign materials? 
Something the MSPB considered this past December in Special 
Counsel v. Wilkinson.
    Or what about making fundraising calls from the Office of 
the Vice President? And this actually happened. In this OSC 
report, we are left only with pejorative adjectives, like 
pernicious, without any nouns, in other words facts, to support 
sweeping legal conclusions. No cases cited. No controlling 
legal authority relied on.
    I think the majority recognizes how tenuous the Hatch Act 
case is as well. They realize that what we are witnessing is an 
Office of Special Counsel eager to rehabilitate and vindicate 
itself. And they realize the other issues that originally 
brought Administrator Doan a summons from the committee--
remember, it was not that long ago we were talking about a 
Federal supply schedule contract held by Sun Microsystems, the 
suspension and debarment process, and contemplated contract 
with the Diversity Consulting Co. But those issues bore no 
political fruit. So here we are, they are dropped, and here we 
are back again looking at something else. The Hatch Act. How 
juicy, how convenient, what a short hop, skip, and a jump to 
the office of Karl Rove.
    I am just not buying that the alleged premise of today's 
hearing. No one is more concerned than I am about protecting 
the institutional integrity of this committee and the ability 
of witnesses to give us the information we need without 
reprisal. But that is not why we are here today. After all, if 
the majority were so concerned about the integrity of testimony 
before the committee, there are other witnesses who should 
appear to explain their testimony.
    Valerie Plame Wilson's sworn statements to this committee 
are irreconcilably inconsistent with her statements to the CIA 
Inspector General and the Senate Intelligence Committee. She 
told the Senate committee: ``I honestly do not recall if I 
suggested if [her husband] to go over to Niger.'' She told us: 
``I did not recommend him, I did not suggest him, and another 
officer suggested that we send Joe Wilson.'' She testified that 
the uncontested additional views of three Senators on the 
Senate committee stating that she suggested Wilson is 
incorrect. But her own memorandum, her own e-mails, on February 
12th, her e-mail to the Chief of the CIA said, ``I am hesitant 
to suggest anything. Again, however, my husband may be in a 
position to assist. Therefore, I request your thought on what, 
if anything, to pursue here.''
    A question whether an inquiry from the Office of the Vice 
President prompted Plame to suggest or recommend Wilson. She 
told us she had just received a telephone call, that she wrote 
her February e-mail after her conversation with a junior 
officer had just received a telephone call at her desk from 
someone, I do not know who, in the Office of the Vice 
President. But her own memorandum and other documents, that was 
not until the next day. It was not until the Vice President's 
CIA briefer said the VP was shown an assessment that Iraq is 
purchasing uranium from Africa and he would like CIA's 
assessment of the transaction. That did not happen until the 
next day.
    The next question, whether a conversation with her Branch 
Chief and a colleague prompted Plame to write her February 12th 
e-mail. She testified before this committee, ``As I was 
leaving, my Branch Office Chief asked me to draft a quick e-
mail to the Chief of our Counterproliferation Division to let 
him know that this might happen.'' But in her own memorandum of 
February 12th, she notes that ``the report forwarded below has 
prompted me to send this to you.'' So there are many 
inconsistencies there. But I doubt seriously whether this 
committee will look at those.
    The GSA Inspector General testified before this committee 
that he relied on information from the majority's Web site to 
support a key finding in his earlier report on the GSA 
Administrator. The legitimacy of the committee's work is at 
stake if we do not question the testimony of those witnesses. I 
am concerned the committee is becoming a place where witnesses 
can testify with impunity so long as they say whatever fits the 
Democrat's political agenda.
    I think we also need to carefully consider the undue 
influence this committee and attendant media reports and leaks 
have on the OSC proceedings against Administrator Doan. During 
their questioning of the Administrator, OSC's own lawyers 
acknowledged the committee's previous hearings tainted their 
proceedings as it became impossible to determine whether 
witnesses were influenced by press coverage of that hearing.
    Finally, Mr. Chairman, to say we are here to protect 
Federal employees, then why are we demanding personnel files 
and giving further air time to what the Administrator said 
about GSA employees? She said it in a private venue after 
assurances that these would not be released and their 
reputations would not be tarnished or aired. Why are we meeting 
in public? Remember, Administrator Doan thought her testimony 
would remain confidential. It is only through the Office of 
Special Counsel media leaks and your hearings today that these 
employees are being damaged.
    The truth is, I think the Administrator's testimony before 
us in March could have been stronger. She could have been 
better prepared. I think she could have chosen her words to the 
OSC more carefully. And I think, on reflection, she would agree 
with me. But I think that the committee and the OSC are guilty 
of grossly overplaying their hands in response to her inelegant 
truthfulness and good faith.
    I urge you to refocus the committee's time and resources on 
the countless issues demanding our attention--real ID 
implementation, information security, border control, emergency 
preparedness in the Nation's Capital, security clearance 
backlogs. The list goes on and on. I would ask, Mr. Chairman, 
that you issue a subpoena to Valerie Plame Wilson. Ms. Plame 
Wilson should be summoned to appear before this committee and 
address the substantial irregularities in her sworn testimony. 
As I have outlined here, before the Senate panel and before our 
committee, there appear to be irreconcilable inconsistencies in 
numerous respects that go to the heart of your investigation. 
You want to bring the Secretary of State before this committee 
and take time from her busy travel schedule. We ought to 
address these as well.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0149.007
    
    [GRAPHIC] [TIFF OMITTED] T0149.008
    
    [GRAPHIC] [TIFF OMITTED] T0149.009
    
    Chairman Waxman. Thank you, Mr. Davis. They are certainly 
points that I would want to debate with you, but I think we 
ought to move on to hear from our witness. A lot of the 
arguments will come out in the questioning by our Members.
    Mr. Burton. Mr. Chairman.
    Chairman Waxman. Yes?
    Mr. Burton. Other Members will not have a chance at this 
time?
    Chairman Waxman. No, we are going to go right to our 
witness. All Members will get 5 minutes for questioning the 
witness.
    Mr. Burton. Mr. Chairman, I am very sorry about that. I 
think there is some additional illuminating that could be done 
at this point. But I will wait for my 5 minutes later.
    Mr. Davis of Virginia. Mr. Chairman, let me just ask, we 
have Members here, maybe we can get it through, I would move 
the committee direct the chairman to issue a subpoena to 
Valerie Plame Wilson.
    Chairman Waxman. Are you offering a motion?
    Mr. Davis of Virginia. I am. She should be summoned to 
appear before this committee and address the irregularities in 
her sworn testimony.
    Chairman Waxman. I would be happy to discuss this with you. 
I do not want to issue a subpoena before we invite a witness. 
She did come here voluntarily. And if there are questions we 
want to ask of her and you feel you need an answer, I will work 
with you to get the answers.
    Mr. Davis of Virginia. All right.
    Chairman Waxman. I would like to now call forward Lurita 
Doan, the head of the General Services Administration.
    Before you even sit down, Ms. Doan, I think you know it is 
the practice of this committee to ask all witnesses that appear 
before us to take an oath. I would like you to continue 
standing and raise your right hand.
    [Witness sworn.]
    Ms. Doan. I do.
    Chairman Waxman. The record will reflect that she answered 
in the affirmative.
    Mr. Davis of Virginia. Before she begins, Mr. Chairman, let 
me just say that I accept you at your word and withdraw my 
motion. We have a relationship and we will discuss this. Thank 
you.
    Chairman Waxman. Thank you, Mr. Davis.
    Ms. Doan, we welcome you back to the committee. I am going 
to let you proceed however you see fit.

 STATEMENT OF LURITA A. DOAN, ADMINISTRATOR, GENERAL SERVICES 
                         ADMINISTRATION

    Ms. Doan. Thank you, Chairman Waxman, Ranking Member Davis, 
and members of the committee. In 1989, I took a job that no 
other company was willing to do. My task was to upgrade a 
computer system in Berlin, Germany. But when I got to Berlin, 
it was the day the wall came down and the city went nuts. And 
like most Berliners that day, I rented a hammer and a chisel 
and I did my little part to chip away the Berlin Wall. Today, I 
find myself in a similar situation, where I am caught in the 
midst of something much bigger than I am, with very far-
reaching ramifications.
    As Administrator of GSA, I have been a tireless advocate 
for GSA and have done the best that I can to champion efforts 
to remove obstacles to performance, promote greater 
entrepreneurialism, and provide more support to our beleaguered 
Federal contracting community. I am human and imperfect and 
make mistakes. But when it comes to GSA, my heart is in the 
trim.
    As I testified earlier, the results of this past year have 
been spectacular. We regained our clean audit, saved millions 
of taxpayer dollars, stood up a new Office of Emergency 
Response and Recovery to better help in disasters, rekindled 
entrepreneurial energies, restored the confidence of our two 
largest customers, reduced the time to award contracts by 3 
months, successfully executed the largest reorganization in the 
history of GSA, launched a governmentwide acquisition contract 
to provide people who have sacrificed so much for our country, 
our Nation's service disabled veterans, with more opportunities 
to do business with the Federal Government. GSA is focused on 
results and we were recently voted by employees as one of the 
best places to work in the Federal Government.
    These are only a few of our achievements, achievements that 
have, at times, been overshadowed by allegations against me. In 
some instances, the allegations have simply been untrue. In 
others, I made mistakes and I said so. In still others, the 
allegations have not been presented in fair, accurate, or even 
complete context.
    Since my first days as Administrator I have said that there 
is no greater asset than the GSA employees. However, the leak 
of the Office of Special Counsel's report has had serious 
consequences for people other than me, and it will have an 
impact on my testimony here today. My answers to OSC 
investigator questions regarding employees' performances were 
made with the expectation that identifying information about 
those discussed was to be treated confidentially, and because I 
wanted to be fully cooperative with the investigation team. I 
never intended or imagined that this information would be 
carelessly made public by others, and I sincerely regret any 
unintended consequences that may have resulted. It is so very 
sad that people, good people, who have decided to devote some 
part of their life to serving this country have had to undergo 
a public discussion of their performance for no good reason. It 
is, however, important to note that these performance 
evaluations occurred prior to the January 26th meeting. I would 
appreciate the committee's understanding and agreement on this 
very point.
    Sadly, though, as I see it, at no time has anyone on the 
majority staff asked me questions about GSA's accomplishments. 
The nature of the questions since that hearing, and the 
overwhelming majority of the questions that I got in person 
last time, seem more like a game of political ``gotcha'' with 
me being the ``gotchee.'' I do not wish in any way to suggest 
that I have not made mistakes. I have. More to the point, I am 
likely to make more. But my point here is something more 
important. The culture of gotcha is inherently corrosive. Any 
words or even the hint of something even slightly controversial 
is seized upon, magnified, and used to inflict as much personal 
harm as possible. More than anything else, actions and facts 
are minimized in favor of sensationalism.
    It is frustrating to be accused of playing politics at GSA 
when I know that my decisions have been based on merit. Several 
of my key political appointees were actually career employees, 
because I just wanted the best person for the position. More 
importantly, GSA procurements are determined by the priorities 
of its Government customers, not partisan politics. You may 
fault me for not remembering, and you may find fault with how I 
responded to one or two hypothetical questions posed during the 
course of a 9-hour interrogation about that event. Even if you 
were to do that, and I feel certain that some of you will be 
doing that this morning, you will not be as hard on me as I 
have been on myself. But none of my actions, however, have been 
intended or have resulted in personal or partisan political 
gain.
    I grew up in the ninth ward in New Orleans, and being one 
of the first minority students in an all White school taught me 
a lot about how to deal with unfairness, with harassment, with 
hostile environments, and it taught me that you do not quit 
just because things get tough. Because quitting would be far 
worse than persevering in the face of adversity.
    So today I sit before you prepared to answer your questions 
to the fullest extent I can, with honesty and with 
transparency, and I hope to bring clarity by explaining the 
context in which many of my comments were made.
    But there are certain things that I would prefer not to do 
this morning. First, I will be happy to answer general 
questions about policies and procedures, but the privacy rights 
of GSA employees is too important for me to be goaded into a 
discussion of any individual's performance unless it is to 
praise them for outstanding work. I am a firm believer in the 
old adage ``praise in public, criticize in private.''
    Second, I will not try to make legal arguments because, 
quite simply, I am not a lawyer. The letter my attorney wrote 
in response to the White House Special Counsel speaks for 
itself. Finally, I will not put blame on others. I will, to the 
extent possible, be open and as candid as I know how to be.
    What I learned in Berlin in 1989 is that change is 
difficult. My first whack at the Berlin Wall had no effect at 
all. My second swing of the hammer, when I did that I hit my 
thumb and it really hurt, but I kept at it. I did not let 
mistakes or errors prevent me from accomplishing my goal. And 
while it may have taken more than 40 or 50 swings, I did 
finally break off a piece of that wall. I am grateful for this 
opportunity to serve and I am excited about the successes GSA 
has had. We have built a strong team of both career and non-
career employees, and I believe that we are laying the 
groundwork for a successful future for this generation of GSA 
employees.
    Mr. Chairman, Ranking Member Davis, and members of the 
committee, I hope my appearance here today will answer fully 
any questions you might have and will set the record straight. 
Great things are happening at GSA and the Nation can and should 
be proud of what is being accomplished. The chips are flying. 
Change is happening, even if the Administrator occasionally 
hits her thumb.
    [The prepared statement of Ms. Doan follows:]

    [GRAPHIC] [TIFF OMITTED] T0149.010
    
    [GRAPHIC] [TIFF OMITTED] T0149.011
    
    [GRAPHIC] [TIFF OMITTED] T0149.012
    
    [GRAPHIC] [TIFF OMITTED] T0149.013
    
    Chairman Waxman. Thank you very much, Ms. Doan.
    I want to start off our questioning by commenting on the 
fact that if you listen to the Republican arguments as 
articulated by the ranking member, this is all a partisan 
activity--you are Republican, the majority is Democrat. But Ms. 
Doan's problems started with her Inspector General, appointed 
by President Bush. She said he was out to get her. The next 
thing that happened was that there was an Office of Special 
Counsel that investigated Ms. Doan and found that she had 
violated the Hatch Act. That Office of Special Counsel was 
appointed by President Bush. It is not a democratic 
organization, it is a governmental organization. They are 
supposed to enforce the Hatch Act.
    The criticisms, people say, are coming from Democrats. But 
one of the first people to speak out about the problems at GSA, 
particularly the sweetheart contracts that we were seeing let 
out at GSA that raised questions, was Senator Grassley, the 
lead Republican on the Senate Finance Committee, a very well 
respected man on both sides of the aisle, but a Republican. And 
then we have heard not only is it all partisan, other people 
have done worse. Oh, Valerie Plame, she lied. Richard Nixon, he 
lied. Other people have done worse, they could have been 
calling directly for contributions. Well, certainly, people 
have done bad things. Some have violated the Hatch Act in ways 
that are even more troubling. But that does not mean that Ms. 
Doan's conduct by hosting a political briefing to Republican 
political appointees, urging them to help our Republican 
candidates, was not a problem under the Hatch Act, which is 
supposed to protect employees from their supervisors imposing 
their politics on them.
    Now the problem with these people that were criticized by 
Ms. Doan was that they testified before this committee, and 
that got her wrath. But as I pointed out, those people as well 
were Republicans, some of them were Republican appointees at 
the GSA. Let us look at the facts of this case and determine 
whether we have a problem here or not of intimidating Federal 
employees.
    I want to yield the balance of my time to Mr. Braley from 
Iowa.
    Mr. Braley. Thank you, Mr. Chairman.
    Ms. Doan, it is good to have you back. I would like to 
start by taking you back to May 31, 2006, which I am sure was a 
memorable day in your life. Do you remember that day?
    Ms. Doan. Yes. It was the day I was sworn in as 
Administrator of the General Services Administration in the 
afternoon at the GSA auditorium.
    Mr. Braley. That is correct. And do you remember the 
remarks you shared as part of your appointment that day?
    Ms. Doan. In general. But if you would care to share with 
me the specifics that you want to discuss, I am happy to do 
that.
    Mr. Braley. Well, one of the comments you made during your 
oath of office ceremony speech was that ``the Administrator of 
GSA is an important position of trust, and I value the 
President's confidence in me.'' Do you remember that statement?
    Ms. Doan. I believe I would--I am sure you got that off the 
Web site. I am happy to agree with you on that.
    Mr. Braley. Then you talked about some of the goals that 
you had set for the agency, and the first goal you mentioned 
was returning to President Truman's vision for GSA--``a clean, 
honest, and responsive purchasing agency.'' Do you remember 
outlining that goal?
    Ms. Doan. Yes.
    Mr. Braley. The reason we find ourselves back here today is 
to determine whether you violated your position of trust by 
engaging in retaliation against the very government officials 
who cooperated with the investigators looking into the 
allegations of improper conduct by you. And you made reference 
to the fact in your statement that you shared with the 
committee today, you indicated there is no greater asset at GSA 
than its employees. That is something that you believe in.
    Ms. Doan. And have spoken firmly and acted firmly in that 
area.
    Mr. Braley. Well, you testified before the committee on 
March 28th and I asked you about a political presentation by 
Karl Rove's deputy, Scott Jennings, that was hosted at the GSA 
Headquarters, and we went through the various Power Point 
slides that had been presented by Mr. Jennings, talking about 
the plans to defend Republican seats and defeat Democrats in 
2008. And this committee was concerned because to us it 
appeared that those presentations violated the Hatch Act, which 
prohibits political activity on government property. Since 
then, we have learned that the White House gave similar 
presentations throughout Federal Government agencies. But when 
I asked you about that presentation, you claimed to have no 
recollection of it whatsoever. Other GSA employees did remember 
that presentation, however, and they also remembered how you 
followed up by asking your employees how you could get GSA to 
help our candidates, meaning, Republican candidates, in 
upcoming elections. When I asked you about this statement, you 
again claimed to have no recollection.
    So, finally, I asked you about the GSA employees who 
cooperated with our investigation. All of them told us that you 
made this statement. When I asked you whether you had any 
reason to doubt their memory or the credibility of these GSA 
officials, your answer was, no, you did not, because you could 
not remember the event. Do you remember that discussion we had?
    Ms. Doan. I remember the discussion, maybe not the exact 
give and take of it.
    Mr. Braley. Those were your answers on March 28th. But 
after that hearing, you testified again before the Office of 
Special Counsel and there you gave a very different story. We 
have the transcript here from your testimony and it shows that 
you said that these GSA officials were poor performers, you 
questioned their memories, and you even suggested that they 
were not telling the truth to Federal investigators. These are 
extremely serious charges against your colleagues and we want 
you to explain them.
    Let me put up your testimony, if we have that. You stated, 
``There's not a single one of those who did not have somewhere 
in between a poor to totally inferior performance.'' So you 
testified that each of the GSA employees who spoke to the 
Office of Special Counsel had poor to totally inferior 
performance. Is that not true?
    Ms. Doan. I think what is important to understand is the 
context in which the question was asked to me. They asked me to 
speculate----
    Mr. Braley. I think it is important for you to answer the 
question. Is that not true?
    Ms. Doan. I am trying, Congressman Braley, to answer it to 
the fullest of my ability. And that is you have to understand 
the context in which the Office of Special Counsel investigator 
asked me could I please speculate on what and why there might 
be a difference in the recollections of the events of January 
26th. And I tried to comply as fully and as candidly as I 
possibly could with their request. That is the context, and 
they asked me to speculate, and I did. I should not have.
    Mr. Braley. I doubt very seriously whether this transcript 
would indicate that the Office of Special Counsel would ask you 
to speculate on anything. And this committee certainly does not 
want you to speculate. We want you to testify about facts. My 
question to you was is it not true that you testified that each 
of these GSA employees who spoke to the Office of Special 
Counsel had poor to totally inferior performance. That is a yes 
or no answer.
    Ms. Doan. I appreciate you giving me the chance, first 
things first, if you would turn your attention to page 385, you 
will see that indeed the Office of Special Counsel did ask me 
to speculate. Their exact statement is, ``I'm asking you to 
speculate.'' Now, this is at the end of 9 hours of questioning. 
If we were to go to the first 20 minutes, we would also find 
that they asked me to speculate. And I started tallying up how 
many times they asked me to speculate throughout it and 
actually I decided this was not time well spent because there 
were so many opportunities where they asked me to speculate.
    Was I wrong to speculate? Absolutely. I should not have 
done this. We should have focused on facts. The Office of 
Special Counsel, even if they asked me to speculate, I have to 
tell you, I really regret doing that. I should not have done 
that. That was not right of me. I did it because I was trying 
to be compliant and I thought that it was going to be fully 
confidential. But I regret doing it.
    Mr. Braley. Let me ask you, after that preface that you 
read to us, do you think anyone at this meeting would make up 
that you had made these statements? That was the context of the 
question.
    Ms. Doan. Yes, it was. And if you look at my response which 
follows it, you will see that I did not say that they made it 
up. What I said is I think it is possible that if a leading 
question were asked, yes, I think one or two of them may not 
wish me well. But what we had been talking about for about 
maybe 20 pages beforehand was the fact that before any of these 
folks were questioned by any of the different investigators, 
there had been repeated news articles, it had been in all the 
trade journals, and in addition to that, they had been 
interviewed by you guys on the committee. And so what I had 
said is that there is the possibility that there were lots of 
opportunities for them to hear information, and if someone in 
that context were to then be asked a leading question, it is 
possible that recollections change. I cannot say whether 
someone misspoke or not. I can only talk about myself. And I 
cannot account for changes in other people's recollection. That 
is the context that I was trying to explain, Congressman.
    Chairman Waxman. Mr. Braley, I am going to yield you 3 
additional minutes.
    Mr. Braley. Were you represented by counsel during this 
interview?
    Ms. Doan. I had my personal counsel with me.
    Mr. Braley. Did anybody raise an objection to the question 
when it was posed during the interview?
    Ms. Doan. Well, I think when we started going back----
    Mr. Braley. No. In this specific question, did anybody 
raise an objection?
    Ms. Doan. Congressman Braley, no, because in the first hour 
of the interview we had gotten into a little bit of a spat 
because it was perceived that I was not complying fully when I 
tried to give yes and no and avoid these kinds of issues. So in 
an attempt to try to be more forthcoming, to show that I was 
fully open and was trying to comply with the investigation no 
matter how wild the questions were, and I will say some of 
these questions got pretty wild, I tried to comply.
    Mr. Braley. Well, let us talk about one of the other 
questions. I do not have that much time, so I am going to move 
on to another question. You also made the statement that 
impugned these officials when you said that ``I do find it 
highly disturbing that some of the most vocal proponents or the 
most articulate speaking out against me are also the people I 
have either moved on or they are, I don't want to say 
permanently demoted but they're kind of, until extensive 
rehabilitation of their performance occurs, they will not be 
getting promoted and will not be getting bonuses or special 
awards or anything of that nature.'' So in addition to being 
poor to totally inferior, they are now not going to be getting 
bonuses, promotions, or awards, and those are very harsh 
attacks, do you not agree?
    Ms. Doan. First, there can be no retaliation given that 
performance reviews were performed well in advance of the 
January 26th meeting. The two events cannot possibly be 
connected. The Office of Special Counsel's report is filled 
with leaps in logic because how can you have performance 
reviews that happened any time between September and December, 
early January, an event, a brown bag luncheon that happens 
January 26th, and then claim that a performance review that was 
given a month before was in retaliation for an event which 
happens a month and a-half later. It simply is not possible.
    Mr. Braley. You were the one raising concerns about the 
performance of the witnesses who testified against you, and you 
were given an opportunity to present evidence to the Office of 
Special Counsel to back up your claims. They reviewed the 
evidence you provided and still concluded that your statements 
were unwarranted in their report to the President. Is that not 
true?
    Ms. Doan. No, that is not correct, Congressman Braley. 
Actually, the first request to talk about performance came from 
the investigators. The investigators themselves actually asked 
me would I talk about the performance. This is when I said that 
the discussion covered a whole wild set of stuff. That was on 
day one. I think you have been focusing only on day two.
    Chairman Waxman. Mr. Braley, you only have 14 seconds left. 
I want to reclaim my time.
    Ms. Doan, I am going to make a rhetorical statement, 
because when we first heard from you you claimed that you were 
being picked on by your Inspector General Brian Miller, a 
Republican appointee. Then you said you were being picked on by 
the Office of Special Counsel. Then you said you were being 
picked on by these employees. Can you think that your 
statements about those employees reflected anything other than 
anger at them and a desire to make sure that they do not get 
promotions because of what they did to you?
    Ms. Doan. Congressman Waxman, if you could actually point 
out to me my language in my previous testimony where I said 
that the IG was picking on me. I just do not believe I said 
that. I just find that hard to believe.
    Chairman Waxman. You said who is going to investigate the 
investigators.
    Ms. Doan. No, that is something totally different. And if 
you could still point out to me the exact quotation, I would 
like to be able to understand the context to have said that. I 
still do not remember making that exact phrase. I do think the 
exact wording, if we are going to be talking about this, is 
important. Could you please maybe just show----
    Chairman Waxman. My time has expired. I am going to go on 
to Mr. Davis. We will see if we can give you the language. But 
with your sharp memory, you have me questioning whether I read 
it right. But I will get it for you.
    Ms. Doan. OK. Thank you. I appreciate that.
    Mr. Mica. Mr. Chairman, parliamentary inquiry.
    Chairman Waxman. The gentleman will state his parliamentary 
inquiry.
    Mr. Mica. Mr. Chairman, we had GSA Administrator in 
previously and we had questions that have been raised about her 
alleged violation of the Hatch Act. At that time, we----
    Chairman Waxman. What is your parliamentary inquiry?
    Mr. Mica. Well I have to lead up to this because----
    Chairman Waxman. Well, I am sorry, but I do not hear a 
parliamentary inquiry.
    Mr. Mica. My parliamentary inquiry, sir, is that there was 
a leak of information to the Washington Post relating to the 
Special Counsel's draft report which was either leaked by the 
Office of Special Counsel or by a staffer from this committee. 
And I would like to ask when it would be parliamentary 
appropriate to ask for the resignation of either the special 
counsel or the individual on this committee that leaked to the 
Washington Post a copy of the Office of Special Counsel draft 
report. And I would like this made part of the record now, this 
story that appeared on the 23rd----
    Chairman Waxman. The gentleman is not stating a 
parliamentary inquiry. But you will have an opportunity, in 
fact you just took an opportunity, to ask for the resignation 
of the Office of Special Counsel. You ought to check because he 
is a Republican appointee.
    Mr. Mica. When would it be appropriate, sir----
    Chairman Waxman. When your time comes for questioning.
    Mr. Mica [continuing]. To ask for the resignation of a 
staff member of this committee if they leaked that information.
    Chairman Waxman. The gentleman is out of order. And the 
gentleman from Virginia, Mr. Davis----
    Mr. Mica. And I would ask unanimous consent that we include 
in the record a copy----
    Chairman Waxman. Objection is heard.
    Mr. Davis of Virginia. I will yield to you.
    Chairman Waxman. Mr. Davis is now recognized on his time 
and he can yield to you, and that is certainly appropriate.
    Mr. Davis of Virginia. I yield the gentleman 30 seconds to 
put anything in the record.
    Mr. Mica. I would like unanimous consent. I have been on 
this committee for 15 years and I have never seen an 
investigation conducted in this manner. This is a three ring 
circus.
    Chairman Waxman. That is what you said on our last 
investigation.
    Mr. Mica. The morning I read this, it was appalling to me 
to have leaked to the Washington Post. Then the next day, and I 
would like to ask unanimous consent that the article of May 
23rd of be inserted in the record.
    Chairman Waxman. Without objection----
    Mr. Mica. The correction that people should read----
    Chairman Waxman. If the gentleman will allow. The gentleman 
wants it in the record?
    Mr. Mica. Yes.
    Chairman Waxman. Without objection, it will be put into the 
record.
    Mr. Mica. The correction. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0149.014
    
    [GRAPHIC] [TIFF OMITTED] T0149.015
    
    Mr. Mica. And then I would also like at some point to offer 
a motion to have an investigation of either the staff or 
Special Counsel to find out who leaked this information in this 
investigation, which we are taking very seriously in this 
committee. Someone leaked that information before even Ms. Doan 
had that information. I have never seen the conduct of an 
investigation like this in 15 years proceed in this manner. And 
I want an investigation of either the Office of Special Counsel 
by this committee or the staff, and I want the resignation of 
those individuals. And I will pursue this.
    Chairman Waxman. Will the gentleman yield. I do want to 
inform him that we did not see the draft of the special 
counsel's report until it appeared in the newspaper. Our staff 
did not have it. It was prepared by the Office of Special 
Counsel.
    Mr. Mica. And that, sir, is appalling.
    Mr. Davis of Virginia. Thank you. Let me just correct a 
couple things. I do not believe that there is any allegation, 
as I read the Office of Special Counsel's report, that you were 
urging GSA to help our candidates. I think the questions, and 
they were leading questions that were asked by committee staff, 
majority staff, were how can we help our candidates, not how 
can we use GSA to help our candidates, Ms. Doan. But let me 
just ask this. Did GSA do anything to help the candidates?
    Ms. Doan. No. GSA is not a partisan agency.
    Mr. Davis of Virginia. To your knowledge, has GSA done 
anything to advance the candidates following that presentation 
by the White House?
    Ms. Doan. No. That is not GSA's mission.
    Mr. Davis of Virginia. OK. So asking a question how can we 
help our candidates in response to a presentation the White 
House foisted on you was not an advocacy, it was just saying 
all right, you have given us this presentation, what are we 
supposed to do, basically. Is that correct?
    Ms. Doan. I do not remember actually making the statement, 
but I understand what you are trying to say and that would be 
true.
    Mr. Davis of Virginia. Fine. Did you ever urge any of the 
people who were at that meeting to go out and help the 
candidates? Or did you simply ask the White House what can we 
do to help? Do you remember that at all?
    Ms. Doan. Of course, I would not urge any GSA employee to 
go out and help candidates.
    Mr. Davis of Virginia. OK. Thank you. Was any Federal 
employee retaliated against?
    Ms. Doan. No, I do not believe anyone was. And in fact, the 
meeting happened months after performance evaluations were 
performed.
    Mr. Davis of Virginia. Now there has been a lot made on 
these performance evaluations. Could you explain to us how the 
evaluations work. They are graded 1 through 5, is that correct?
    Ms. Doan. Yes. We have a system 1 through 5.
    Mr. Davis of Virginia. And without getting into specifics, 
there were several employees there who had talked to 
investigators, who had recalled comments that claim you made, 
they were not clear on what they made, they were answering 
leading questions, but is it not the case that in some of these 
cases the employees received threes?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. And that means what?
    Ms. Doan. Three means no bonus.
    Mr. Davis of Virginia. It means no bonus. But it is stated 
as what, not a poor performance, but what?
    Ms. Doan. Meets expectations.
    Mr. Davis of Virginia. But meets expectations, a three, is 
a critical score because it means you do not qualify for the 
bonus; correct?
    Ms. Doan. With a three you get no bonus.
    Mr. Davis of Virginia. And an employee who gets a score who 
does not get a bonus may feel--this was a speculative answer, 
as I understand; is that right? You were answering a 
speculative question?
    Ms. Doan. Yes. And I am trying to learn from experience and 
not speculate anymore.
    Mr. Davis of Virginia. But in that case, an employee who 
receives a three may feel, I do not know that they did or did 
not, but they may feel I deserve the bonus, I did not get one, 
and they may feel appropriately not good about that evaluation.
    Ms. Doan. That is very possible. And employees also compare 
themselves to their peers, and that is important, too. And they 
compare themselves to the rating they got perhaps the year 
before, 6 months before. All these things go into an employee's 
perception of the performance evaluation.
    Mr. Davis of Virginia. Now when you made these comments, 
you felt, am I correct, that you had assurances that this was 
going to stay confidential? You did not volunteer this. They 
asked you specifically.
    Ms. Doan. I specifically asked them and they specifically 
said that they do not release the transcripts under any 
circumstances. Obviously, that was not true.
    Mr. Davis of Virginia. Had you known that employees' names 
were going to be released in public, would you have even 
answered the question?
    Ms. Doan. No way.
    Mr. Davis of Virginia. So in no way were you trying to 
smear anybody or disparage anyone's reputation. The names were 
released by the Office of Special Counsel or someone else in a 
leak, because you did not even have possession of the 
testimony; is that correct?
    Ms. Doan. Yes. But it is worse. It appears they 
deliberately went out of their way to embarrass the employees. 
I got it online also. But their original draft version called 
everyone Employee A, B, and C. Someone went out of their way to 
reinsert employees' names into a final version of the document. 
Why would someone choose to do that and cause embarrassment to 
young people who are just serving their country and doing 
public service. I do not know.
    Mr. Davis of Virginia. So in the original draft they did 
not put the names in, but in the final draft they did put the 
names in and leaked it.
    Ms. Doan. And leaked it. And why would you do that? It is 
so wrong.
    Mr. Davis of Virginia. That is a good question. It is a 
question we will have to ask the Office of Special Counsel, and 
I hope we will pursue that.
    The Office of Special Counsel said at pages 404.01 of your 
deposition transcript, ``The second thing I think is what you 
both have been commenting on throughout this process, is we 
interviewed as many people as we possibly could before the 
hearing, and then as soon as the hearing became public and it 
was known to the employees how the Administrator would testify, 
we were concerned about employees feeling they would have some 
concerns if they did not substantiate the testimony of the 
Administrator, and that is why we were extremely disciplined, 
extremely.'' And Ms. Vail says, ``No. I imagine that a number 
of individuals watched your hearing, and one of our concerns 
all along was people's memories were getting tainted by the 
discussions that are being held in GSA, by the news media, and 
obviously by any testimony that has been made.'' Basically, my 
understanding is that OSC's interviews were tainted by the fact 
that this had already been in the public domain. They read it 
in the paper, they may not have remembered what happened 
originally, but seeing an allegation in the paper then kind of 
refreshes their recollection, maybe rightly or wrongly.
    The questioning by the majority staff on this, here is one 
of their questions: ``Several witnesses have told us that 
following the presentation Doan addressed the group and she 
said something to the effect of how can we use GSA to help our 
candidates in the next election. Do you recall this?'' It is a 
pretty leading statement.
    Ms. Doan. Yes.
    Mr. Davis of Virginia. It was a leading statement and I 
think you get a leading answer when you ask those. The Hatch 
Act investigators did not give you your own deposition 
transcript; is that correct?
    Ms. Doan. No, they did not.
    Mr. Davis of Virginia. Was your lawyer permitted to attend 
the deposition for the other witnesses?
    Ms. Doan. No, he was not.
    Mr. Davis of Virginia. So you were not represented at 
those?
    Ms. Doan. No.
    Mr. Davis of Virginia. You were not given the deposition 
transcripts for any of the witnesses, were you?
    Ms. Doan. No.
    Mr. Davis of Virginia. So you are answering things kind of 
blindly in this case, are you not?
    Ms. Doan. Yes, I am.
    Mr. Davis of Virginia. Were you ever told who the witnesses 
were?
    Ms. Doan. No, I was not.
    Mr. Davis of Virginia. Well how can you retaliate if you do 
not know who the witnesses were?
    Ms. Doan. One can only imagine.
    Mr. Davis of Virginia. I think that would be pretty 
difficult. How did this affect your ability to respond to these 
accusations?
    Ms. Doan. As we stated in our letter in responding to the 
Office of Special Counsel's report, it is almost impossible to 
respond when you do not know what exactly was said, when, 
where, why.
    Mr. Davis of Virginia. Thank you. I will yield to Mr. 
Burton. How much time do I have, Mr. Chairman?
    Chairman Waxman. A minute and 30 seconds.
    Mr. Burton. Mr. Davis, I think I would rather pass and wait 
for my 5 minutes, because it is going to take longer than a 
minute and a half. You could yield to Mr. Mica.
    Mr. Davis of Virginia. OK. Mr. Mica.
    Mr. Mica. Ms. Doan, welcome back. I warned you in the 
beginning when we first talked that they were out to get you. 
Mr. Waxman went through the little scenario with the $20,000 
contract and could not find anything there, so they went on 
their fishing expedition. He brought up the Sun contract, which 
was before you were there, and there was nothing there. So they 
managed to find something in this meeting.
    Let me ask you one more time, did you initiate the 
political briefing?
    Ms. Doan. I did not.
    Mr. Mica. OK. Did you see the briefing before it was 
presented by Jennings?
    Ms. Doan. No.
    Mr. Mica. First of all, you are a Republican, a minority, a 
woman, a GOP contributor, and they have targeted you and are 
circling around you to come after you. I did not know that the 
General Counsel who we turned the Doan investigation over to, 
one of the most high profile undertaken by the Office of 
Special Counsel, at the end of this article that I inserted 
into the record, that Scott Bloch is himself under 
investigation by the Office of Personnel Management for 
allegedly retaliating against employees who disagreed with his 
policy. Did you know that?
    Ms. Doan. No, I did not.
    Mr. Mica. OK. Thank you.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Ms. Doan, I am straining 
trying to figure out where the truth ends and something else 
begins. You have accused this side of the aisle of this gotcha 
mentality and what have you. But I want to go back to some of 
your statements, Ms. Doan, and maybe you can help me. When you 
testified before our committee on March 28th you stated, ``I do 
not think that any Government agency should be engaging in 
partisan political activity.'' I know you are reading something 
but this is very important. Do you remember saying that?
    Ms. Doan. I am sorry, could you repeat the question?
    Mr. Cummings. You are taking up my time. You said, ``I do 
not think that any Government agency should be engaging in 
partisan political activity.'' That was back before us, sworn 
testimony, March 28th. Do you remember that?
    Ms. Doan. Yes.
    Mr. Cummings. OK. You also said, ``I have to tell you, 
polls and stuff like that, this isn't my thing. This isn't what 
really motivates me or energizes me.'' Do you recall that?
    Ms. Doan. Yes, I do, sir.
    Mr. Cummings. You said the same thing to the Office of the 
Special Counsel. You said, ``I don't care about polls and 
election results.'' Do you remember that?
    Ms. Doan. Yes.
    Mr. Cummings. Even today, your written testimony, Ms. Doan, 
states ``None of my actions, however, has been intended for or 
resulted in personal or partisan political gain.'' I want to 
ask you about the veracity of these statements, your intentions 
and your motivations. First, as a matter of public record, both 
you and your husband are or have been Republican National 
Committee Regents. To be a Regent you have to have raised 
$250,000 for the Republican Party. And as Regents, you have 
been invited to fundraising events with White House officials. 
Is that correct?
    Ms. Doan. No, that is not correct.
    Mr. Cummings. Well, correct me.
    Ms. Doan. You do not have to raise the funding. You can do 
your own contributions if you choose.
    Mr. Cummings. You did yours?
    Ms. Doan. Yes.
    Mr. Cummings. OK. Thank you. We have been informed that on 
May 17, 2005, you attended a Regents Breakfast at the St. Regis 
Hotel. The speaker was Al Hubbard, who works at the White House 
as Assistant to the President for Economic Policy. Do you 
recall attending the meeting on May 17, 2005?
    Ms. Doan. Yes, basically.
    Mr. Cummings. Let me show you a document that references 
this meeting. This is an e-mail you wrote to Mr. Hubbard on 
your husband Douglas Doan's official Government computer at the 
Department of Homeland Security where he worked. You wrote it 
on the same day you met with Mr. Hubbard at 1:14 p.m. This is 
your draft e-mail to Mr. Hubbard and here is what is says, in 
part: ``Thanks for the excellent comments at the Regents 
Breakfast today. I want to thank you again for helping move my 
bio forward for consideration as the SBA Administrator.'' So 
this was before you were appointed as GSA Administrator. You 
were trying to become the head of the SBA. The e-mail then goes 
on to say something that is extremely interesting. It says, 
``As I mentioned, I believe that the Party has a unique 
opportunity to make about a 5 percent swing of the black votes 
to the GOP.'' You go on to say, ``One of the largest 
concentrations of wealth and influence lies in the black 
business community, small black business owners who represent 
the largest percentage of participants in the various SBA 
programs.'' Are you familiar with that?
    Ms. Doan. Yes.
    Mr. Cummings. Very well. And then in the third paragraph 
you say this: ``As the SBA Administrator, I would have an 
unparalleled ability to serve as an articulate and impassioned 
Ambassador for the President's agenda and at the same time to 
be in a position to encourage both funding and votes to the 
GOP.'' Do you recall that?
    Ms. Doan. No. But I am reading it here.
    Mr. Cummings. You do not recall that, your own e-mail? All 
right. Ms. Doan, this says that you would encourage both 
funding and votes to the GOP, does it not?
    Ms. Doan. My intention here was to simply be a good 
example. I was a private citizen at the time. I was not in a 
political position and I had not had a Hatch Act briefing.
    Mr. Cummings. But you also said earlier that you were not 
interested in the political stuff. You were not interested in 
any kind of partisan stuff. The problem here, Ms. Doan, is that 
when we take all of the things combined, and I have heard you, 
I have listened to you and you have given great statements, but 
when we combine everything, it leans more toward not pure 
truthfulness under oath than truthfulness. I am sitting here 
and I am trying to get where you stand in all of this. Because 
it seems as if when there are questions about your 
truthfulness, you go off and you say things like, well, you 
made a mistake. Well, where do the mistakes end and the truth 
begin?
    Ms. Doan. First, Congressman, one e-mail in a lifetime does 
not constitute a passion. Second, this is something that 
occurred as a private citizen long before I became a political 
appointee and long before I actually understood the rules and 
regulations that surround political appointees--Hatch Act 
briefings, Hatch Act training, and things of that nature.
    Mr. Cummings. But also said, Ms. Doan, in the e-mail about 
a very specific goal--5 percent swing of Black votes to the 
GOP.
    Ms. Doan. Congressman Cummings, I cannot tell you exactly 
what the context was in which this e-mail was written at the 
time. But what I can tell you is that then I was a private 
citizen. Now I am in a political position. I was not the GSA 
Administrator at the time. I had not had a Hatch Act briefing.
    Mr. Cummings. Thank you. I see my time is up. Thank you, 
Mr. Chairman.
    Mr. Davis of Virginia. I would yield myself 2 minutes 
before you recognize Mr. Burton.
    Chairman Waxman. Yes.
    Mr. Davis of Virginia. I could not for the record remember 
an e-mail I sent May 17, 2005, and I do not think that makes me 
dumb or a liar or anything else. We send out hundreds or 
thousands of e-mails and to go back 2 years for an e-mail that 
was not shown to you before today, was it?
    Ms. Doan. No. I just saw it a few seconds ago.
    Mr. Davis of Virginia. How are you supposed to remember 
what you said on that date.
    Ms. Doan. I think surprise was the element.
    Mr. Davis of Virginia. So do not let them push you around. 
Second, there is nothing wrong with being an African-American 
Republican. They seem to put something on it. You are not 
interested in the nitty-gritty that was given in this 
presentation, I gather, from the White House.
    Ms. Doan. No.
    Mr. Davis of Virginia. And when you say it is not your 
passion the nitty-gritty of who won by what percent. But as an 
African-American woman entrepreneur who has been successful, 
understand that being a role model can set a great example for 
making inroads for our message to the African-American 
community. Is that correct?
    Ms. Doan. That is absolutely true. This is a great Party. 
It is very supportive of Blacks and Black entrepreneurs.
    Mr. Davis of Virginia. And setting somebody up who has been 
successful is leading by example. From my perspective, that is 
not inconsistent in any way with not having your passion being 
the nitty-gritty of winning election campaigns and the 
percentages. There are a lot of Americans who are not 
interested in the nitty-gritty of politics. They write checks, 
they have certain philosophical beliefs, they want to serve 
their country, on both sides, good people, but that does not 
mean they are into the nitty-gritty of politics. Frankly, if I 
were you and this was my introduction to the nitty-gritty of 
politics, coming before this committee, I do not think I would 
want to know more about it or be involved with it. So from my 
perspective, I do not see any inconsistency here. But I see a 
desire on the other side that you are an African-American 
Republican so you have a big bull's eye on you, and I 
understand that.
    That is the end of my 2 minutes. I think we are ready to 
recognize Mr. Platts.
    Chairman Waxman. Gentleman's time is yielded back. Mr. 
Platts.
    Mr. Platts. Thank you, Mr. Chairman. I regret I need to 
leave for another meeting. I would like to yield my time to the 
gentleman from Indiana, Mr. Burton.
    Mr. Burton. I thank the gentleman for yielding. You know, 
this is very amusing to me. Under the guise of being fair and 
thorough, the chairman is saying he wants to conduct 
investigations to get to the bottom of the ``illegal 
activities'' that may have taken place. But you cannot get him 
to bring Stephen Hadley before this committee. Stephen Hadley 
was destroying and sneaking classified information--no, Sandy 
Berger. Correct that.
    Chairman Waxman. We cannot get Stephen Hadley in here, 
sorry. [Laughter.]
    Mr. Burton. Correct that. Sandy Berger was stuffing 
classified documents into his socks and destroying them. But we 
cannot get you to bring him before the committee. I would 
really like to know why. In addition to that, Valerie Plame. 
The ranking Republican on this committee asked that you bring 
Valerie Plame before the committee. I do not think we ought to 
hold our breath on that. We would probably die of suffocation.
    But when you were in the minority and Al Gore went to a 
Buddhist temple and got $65,000 in campaign contributions, you 
defended him. When Bill Clinton took money in the White House, 
according to Johnny Chung, Johnny Chung said it was like a 
turnstile over there, you put the money in and you get in and 
get what you want, you guys would not do anything to 
investigate that, tried to block it. When money came in from 
Communist China, from the head of the Communist China 
intelligence agency, that was given in Hong Kong to Johnny 
Chung, you guys did not want to investigate that. When James 
Riady was getting money from the Lippo Group, millions of 
dollars for the Clinton campaign, and John Wong testified to 
that effect, you did not want to do anything about that.
    We sent five criminal referrals to Janet Reno, five, and 
those criminal referrals were very, very clear, to the point, 
and we had documented evidence that should have resulted in 
indictments of people in the Clinton administration. Five. 
Janet Reno, the Attorney General for President Clinton, blocked 
every one of them. Never even looked into them. She was the 
greatest blocker, greater than anybody I ever saw in the NFL. 
The minority did not want to do anything about it. They just 
kept saying we were on a witch hunt, witch hunt, witch hunt. 
Well, I do not know, but what do you call this? And why will 
you not bring in people that we know broke the law, like Sandy 
Berger and Valerie Plame? Bring her in and let her testify as 
to what she said. You just do not want to do that.
    I cannot understand this when you defended the corruption 
in the Clinton administration so vigorously, even though there 
were over a hundred people that fled the country or took the 
fifth amendment because they were trying to protect that 
administration, even though we had people from the White House 
come down here time and time and time again and say they could 
not remember anything, they had an epidemic of memory loss down 
there. At least Ms. Doan is here testifying. She is not saying 
she forgot everything, like we had the Chief Counsel down at 
the White House and all the subordinates down there saying I 
cannot remember who hired him and who hired them, who did what, 
and who did what when.
    And so what I cannot understand, Mr. Chairman, is why there 
appears to be such hypocrisy on your side of the aisle. If you 
would not do a thorough investigation when the Clinton 
administration was very clearly violating the law time after 
time after time, and we had witnesses at that table time after 
time after time, why is it that you are pursuing this? Why are 
you creating this kind of an investigation? This is really a 
witch hunt. When we did have documented evidence. We had people 
under oath very clearly stating that they personally were 
involved in campaign contributions that were illegal that 
involved the President and his staff and others in the 
administration, and you blocked and blocked and blocked and 
stopped them every chance you got. The Attorney General blocked 
them. That whole administration blocked everything. And there 
is no question that the corruption was throughout the entire 
White House.
    So all I can say, Mr. Chairman, is I think this ought to be 
made apart of the record, all this information, because this, 
in my opinion, what is going on today is really a witch hunt. 
To pursue this the way you are doing it, when you will not 
bring Sandy Berger or Valerie Plame before this committee and 
yet you will subpoena the Secretary of State, who has a little 
bit to do around the world, it just does not make sense to me.
    Chairman Waxman. The gentleman's time has expired. I will 
not comment on your statement. The historical record will speak 
for itself.
    Mr. Burton. I know you will not.
    Chairman Waxman. It is now Mr. Clay's turn. I yield.
    Mr. Clay. Thank you, Mr. Chairman. And thank you, Ms. Doan, 
for being here. Ms. Doan, prior to your May 31, 2006 start as 
Administrator of GSA, you were in the private sector; correct?
    Ms. Doan. I was retired, actually.
    Mr. Clay. You were retired. And then prior to that, how 
long did you support and work for President Bush's election and 
reelection? How far does that go back?
    Ms. Doan. I have been a Republican for decades.
    Mr. Clay. So, since 2000 you have worked on behalf of 
President Bush's election?
    Ms. Doan. Actually, initially, it was Elizabeth Dole. As a 
woman, you have to support another woman running for office.
    Mr. Clay. Sure. Sure. And is it possible that once you got 
to GSA you perhaps did not come out of the campaign mode but 
still thought you were campaigning as far as helping Republican 
congressional candidates, helping the Republican Party look 
good?
    Ms. Doan. Absolutely not, Congressman Clay.
    Mr. Clay. Is it at all possible?
    Ms. Doan. No way. This is a leading question and the answer 
to that is, no. The answer is no, no, and flat no.
    Mr. Clay. OK. That is all I wanted. Now let me ask you, in 
your opening statement you say that you have pursued increasing 
opportunities for minority women and disadvantaged small 
business enterprises. Can you give me some examples of how you 
have helped minority-owned businesses and disadvantaged 
businesses with GSA?
    Ms. Doan. The largest contract that GSA has awarded 
internally for IT infrastructure support has gone to a service 
disabled veteran company that is also an 8A company. It is a 
historic contract. We are really proud of it. It was initially 
targeted for a full and open competition, and GSA has done an 
incredible job of making these opportunities available. The 
largest governmentwide acquisition contract vehicle, Vets, 
which we just awarded, is a multibillion dollar contract 
vehicle, the first time ever, and we have managed to garner the 
support of the Veterans Administration and the Department of 
Defense to utilize these vehicles on behalf of these service 
disabled veterans. These are achievements of which I am 
enormously proud. The 30-day schedule challenge, which is 
making the opportunities for the schedules available to more 
small and minority businesses, collapsing the time that it 
takes them to get an award so they can offer those goods and 
services to the Federal Government sooner is the biggest help 
we can give.
    Mr. Clay. Thank you. Thank you, Ms. Doan, for that 
response. Let me go on to another question then. In your 
written testimony for today's hearing, you argue that you never 
intended to suggest that any GSA employee was lying to the 
Office of Special Counsel. Here is what you said: ``I have 
never accused nor intended to accuse anyone of maliciously 
trying to mislead or lie to the Office of Special Counsel or 
Congress. Characterizations of that sort are simply not true.'' 
But when you look at what you actually said about your GSA 
colleagues, the only reasonable conclusion anyone could draw 
from your statements is that you were implying that these GSA 
officials were not telling the truth. Let us just go right to 
the transcript. When OSC investigators asked whether you 
thought these GSA----
    Ms. Doan. Could you please point me to the page number, 
please?
    Mr. Clay. Excuse me, ma'am. Let me finish the question. 
Whether these GSA officials would make up these stories about 
you, you responded, ``I think one or two of them did not wish 
me well.'' In that statement, are you not saying that GSA 
officials are lying to Congress and the Office of Special 
Counsel? That they fabricated their accounts?
    Ms. Doan. No, I am not. What I said is that I think it is 
possible, the operative word there being possible, that if, if 
is another important word, if a leading question were asked, 
these are all supposed, these are all subjective supposes----
    Mr. Clay. Wait a minute now.
    Ms. Doan. Yes, this is a direct quote from the transcript.
    Mr. Clay. Ms. Doan, you said they do not wish you well, 
therefore they are not telling the truth, right?
    Ms. Doan. No, that is not----
    Mr. Clay. That is what you said.
    Ms. Doan. No, I did not say that. If you go to base number 
385, please----
    Mr. Clay. I have it right here.
    Ms. Doan. The quote, there is nothing in there. It says, 
``I think it is possible that if a leading question were asked, 
yes, I think one or two of them do not wish me well.'' Period. 
End of statement. There is nothing about mistruth. There is 
nothing about lying.
    Mr. Clay. Ma'am, I have a limited amount of time. Let me go 
on, OK.
    Ms. Doan. But you want to get to the truth I thought.
    Mr. Clay. Later in your interview you explained why you do 
not believe the testimony of the other GSA officials. According 
to the transcript, you stated that the witnesses were not 
credible because they have an axe to grind. That is on page 
391. They have an axe to grind, so therefore they are not 
telling the truth, that is what you meant, is it not?
    Ms. Doan. No, that is not what I meant.
    Mr. Clay. Well what did you mean?
    Ms. Doan. We are still in the period of conjecture.
    Mr. Clay. What did you mean then?
    Ms. Doan. If you look at the context in which it was asked, 
after the first I guess 5 hours of the second day, so that puts 
us somewhere around 8 hours into the interview process, they 
said, now, is there anything else that you can think of that 
could possibly, you know, cause this confusion, this, that, and 
the other. And then we talked about the fact that the 
information was in the press, we talked about the fact that 
they had been asked leading questions, the fact that they had 
been interviewed in advance, and, in fact, we tried to find out 
had they been interviewed by the committee before being 
interviewed by the Office of Special Counsel, which, sadly, it 
is possible they had been. All of these, we were talking about 
in the context of could this have influenced the outcome. This 
was one of several different and fairly lengthy discussions 
during an hour of what could possibly, what could you suppose 
could have made this happen. That is the context in which it 
happened.
    Chairman Waxman. The gentleman's time has expired. Do you 
want 1 additional minute?
    Mr. Clay. Yes, sir.
    Chairman Waxman. I yield you another minute.
    Mr. Clay. What you also stated during the investigation is 
that they had poor to totally inferior performance. They are 
totally inferior, so therefore they are not telling the truth; 
is that right?
    Ms. Doan. No. This is something totally different. This was 
a discussion I believe that happened earlier. And as I 
mentioned, within the first 20 or so minutes of the 
interrogation process or interview process, whatever you are 
calling it, the folks actually started bringing up the concept 
of performance reviews and they wanted to know in detail about 
what happens during performance reviews, how are they done, 
what happens to people if they get a poor performance review. 
It starts from the very beginning of the interview process. 
There are several places, Congressman, where I said where are 
we going with this, what is this all about, because it was not 
clear to me. And they said we ask the questions.
    Mr. Clay. That is right. And that is all a part of the 
interrogation process, Ms. Doan. And one of the problems I have 
is that it is very hard to believe your testimony because you 
are always changing your story. You tell the Special Counsel 
under oath that you think the employees are making up stories, 
and then you tell us you never said that.
    Ms. Doan. I did not say they were making up stories.
    Mr. Clay. I do not know how anyone can have confidence in 
what you are saying today.
    Ms. Doan. I did not say they were making up stories. I said 
that if they were given leading statements, they might 
misunderstand what they heard. You are trying to put words in 
my mouth, Congressman. I know you do not intend that. But you 
are not quoting from the transcript.
    Mr. Clay. I am quoting what you----
    Ms. Doan. You are not quoting from the transcript.
    Mr. Clay. I am quoting from your testimony.
    Ms. Doan. No, you are not. You are not quoting verbatim 
anyway.
    Mr. Clay. Yes, I am.
    Chairman Waxman. The gentleman's time has expired. I am 
going to yield 1 minute to Mr. Cummings out of our bank.
    Mr. Cummings. Thank you very much, Mr. Chairman. As I 
listened to the comments of Mr. Burton and having served on 
this committee for 11 years, I just want to read from the 1998 
version of the investigation of political fundraising 
improprieties. It says at page 3927, according to Norman 
Ornstein, a congressional expert at the conservative American 
Enterprise Institute, ``the Burton investigation is going to be 
remembered as a case study in how not to do a Congressional 
investigation and as a prime example of investigation as 
farce.'' According to the New York Times, ``the Committee's 
efforts are a House Investigation travesty and a parody of a 
reputable investigation.'' The Washington Post called the 
investigation in its own cartoon, ``a joke and deserved 
embarrassment.''
    Thank you Mr. Chairman.
    Mr. Davis of Virginia. Mr. Chairman, Mr. Sali is next.
    Chairman Waxman. Mr. Sali is recognized for 5 minutes.
    Mr. Davis of Virginia. Are you going to yield your time, 
Mr. Sali?
    Mr. Sali. Yes, Mr. Chairman. I would like to yield my time 
to Mr. Issa.
    Mr. Davis of Virginia. Thank you. Before we do that, I 
would like take a minute out of my bank and give Mr. Burton an 
opportunity to respond. I hate to go back and reverse the past, 
but I want to make sure everybody gets their point across.
    Mr. Burton. I think it is very important that we do not pay 
attention to what newspaper accounts like the Washington Post 
said about our investigation. We had 100 people flee the 
country or take the fifth amendment. That is fact. We had 
people testify that they were getting money through the White 
House, that they were getting money through the Lippo Group in 
Indonesia, that they were getting money from the communist 
Chinese CIA that was given to the campaign of the Bill Clinton 
administration. Now that is fact. You can say anything you want 
to and read what the Washington Post said, but the facts are 
the facts.
    Chairman Waxman. Mr. Sali is recognized.
    Mr. Issa. He yielded to me, Mr. Chairman.
    Chairman Waxman. Just a minute. Let me start the clock so 
that you get your full time.
    Mr. Issa. Thank you, Mr. Sali, and thank you, Mr. Chairman. 
The way we do business here, you are probably figuring out, is 
that one side badgers you and one side leads. One side quotes 
out of context. Then, usually the other side, that would be us 
right now, we are supposed to rehabilitate the false 
statements, the innuendo, and all the things that were done 
earlier.
    I am not going to do that because I think you have done a 
very good job of explaining that you are consistent, that you 
have in fact told the truth and the whole truth. And if you 
have made any mistake, it has been in fact allowing those 
leading questions and what ifs from people who were trying to 
make a case on you. From a prosecutor who is not independent in 
the sense of unbiased but in fact who gets paid to try to find 
mixable cases, who asked you unreasonable questions and 
clearly, clearly lied about the fact that this would be kept 
private. He either lied through his action or lied through his 
subordinates' action when information that was given under 
oath, confidentially, under that assurance consistent with the 
Federal laws, was leaked.
    And I am sorry. I am sorry for your agency and for those 
men and women who may have gotten threes or fours or twos--not 
necessarily perfect scores--but who in fact deserved not to 
have their private lives and their performance made public.
    I do want to talk about one thing, though. And perhaps 
because you and I are in fact both unabashed loyal Republicans 
who have given to a number of campaigns over the years, 
including several former presidents, I just want to put 
something in context. You know, they talk about you and your 
husband over a period of 5 or 6 years, three or four campaigns, 
giving $20,000 or so per year per each of you as a huge amount 
of money. And it is. I think people look and say that is a lot 
of money to give, even if it is a $1,000 each to 20 candidates.
    But I want to put something in context because I do not 
think you will. And I think it is fair that we should put it in 
context. Is it true that you have given, to the best of your 
recollection, to Women Corporate Directors Education Fund, the 
American Women's Business Centers, which is a film project, the 
Washington, DC, Rape Crisis Center, the Washington, DC, House 
of Ruth homeless shelter, primarily for women I presume, the 
Whitman Walker AIDS research program, the New York Stage and 
Film Foundation, and CARE? So far, are those all correct?
    Ms. Doan. Yes.
    Mr. Issa. How about, as Mr. Davis mentioned, Mary Lander? I 
understand you also gave to her, but we will not consider that 
a charity at this point, will we? Not yet.
    Ms. Doan. Yes, we went to high school together.
    Mr. Issa. You have given to Girls, Inc., to the United 
Negro College Fund, to the Cystic Fibrosis Foundation, to the 
National Foundation for Teaching Entrepreneurship, something 
you know a great deal about, to the Committee of 2,000 
education foundation?
    Ms. Doan. Committee of 200.
    Mr. Issa. Committee of 200, I am sorry. It is growing. The 
Shakespeare Theater of Washington, DC? You know, we have a fine 
center in San Diego. We should talk later. The University of 
Tennessee, Knoxville, which you attended? To Vassar, which you 
also attended?
    Ms. Doan. Yes.
    Mr. Issa. And my understanding, because it has been made 
public, is that these contributions each are as much as $1 
million.
    Ms. Doan. Not every single one, and besides, I do not want 
to get a lot of mail.
    Mr. Issa. No, I am not trying to out you as the generous 
philanthropist that you are. I just want to put it in context 
that when you give out five or tenfold as much to charity every 
year to try to make America a better place, would it be 
unreasonable to give a fraction as much to people who you 
believe, including Mary Lander apparently, will make America a 
better place? Is that not sort of a consistent balance of your 
giving back that you have done all your life?
    Ms. Doan. Yes.
    Mr. Issa. Well, I hope I have not badgered you too much by 
bringing these out. But it does seem to me that we need to 
bring balance to this hearing. One statement was made that you 
have said you regret, a statement which is up to others to 
decide whether or not was outside the bounds, and if it was how 
venal it was. And it appears to be probably not outside the 
bounds. But even if it was, it is a pretty de minimis statement 
compared to many of the things we have heard here today.
    As this hearing goes on, I hope you are given a full and 
complete ability to do so and I am sorry that I did not give 
you a chance to answer more. I yield back, Mr. Chairman.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Ms. Doan, I just want 
to cover a little ground. I heard you testify earlier that you 
did not want to speculate and that you thought the Special 
Counsel was asking you for speculation. I continue to be 
concerned about comments that you made about the performance of 
the individuals that work with you. So I went to the transcript 
and you say that you ``do not want to begin to speculate how 
this could have come up.'' So you are clearly discounting 
speculation.
    But then you go on to say, ``But I do find it,'' so it is 
no longer speculating here, you are finding it ``highly 
disturbing that some of the most vocal proponents or the most 
articulate speaking out against me are also the people who are 
the people who I have either moved on or they are, I don't want 
to say permanently demoted, but they are kind of.'' Then you 
reply to say, ``Until extensive rehabilitation of their 
performance occurs, they will not be getting promoted and they 
will not be getting bonuses or special awards or anything of 
that nature.''
    Now, before you tried to say, well that is impossible for 
me to retaliate because there are reviews that happened months 
before. You are not talking about months before here when you 
are talking to the special counsel. We are talking about things 
that you apparently intend that will occur in the future. You 
say, until that rehabilitation, they will not be getting 
promoted, they will not be getting special awards. Do you want 
to respond to that?
    Ms. Doan. Yes, I would love to. The fact of the matter is 
that as Congressmen you have to look at this once again in the 
context in which it occurred. First, it was speculation----
    Mr. Tierney. No, you stop there. Stop.
    Ms. Doan. No, I will not.
    Mr. Tierney. Stop. We are not going to let you run the 
table on this, Ms. Doan. I am going to ask you a question and 
if I have to ask the chairman to instruct you to be responsive, 
I will.
    Now what I am telling you is that I am reading the context 
of your thing where you clearly say ``I don't want to begin to 
speculate.'' So enough of the speculation. Then your next 
statement directly is, ``But I do find it highly disturbing 
that some of the most vocal proponents or the most articulate 
speaking out against me are also the people who are the people 
I have either moved on or they are, I don't want to say 
permanently demoted, but they are kind of. Until extensive 
rehabilitation of their performance occurs, they will not be 
getting promoted and they will not be getting bonuses or 
special awards or anything of that nature.'' That is the 
context. That is the exact language you used.
    Ms. Doan. Congressman, you do not have to raise your voice 
to me. I came here willingly.
    Mr. Tierney. Well, I had to madam, because you would not 
stop when I asked you to stop. So now the question to you is do 
you intend to hold back these people's bonuses or promotions?
    Ms. Doan. This is an inappropriate comment to have because 
we have to talk about the context in which it happened and the 
tense.
    Mr. Tierney. No, we are not going to go there again. I am 
asking you do you intend----
    Mr. Davis of Virginia. Mr. Chairman.
    Ms. Doan. There is only one place to go there.
    Mr. Davis of Virginia. Mr. Chairman.
    Mr. Tierney. Mr. Chairman would you please instruct the 
witness to be responsive.
    Ms. Doan. I will not have a discussion----
    Mr. Davis of Virginia. Mr. Chairman, I would be happy to 
use my minute, since Mr. Tierney does not, to give her that 
extra minute to put her----
    Mr. Tierney. You do not have that option, Sir.
    Mr. Davis of Virginia. I have a minute I can use to allow 
her to answer the question. She ought to be allowed to answer 
the question.
    Chairman Waxman. Mr. Davis, she ought to be allowed to 
answer the question, but it is Mr. Tierney's time and no one 
can take that time and interfere with that. So let me just try 
to put some order to this.
    Ms. Doan. I would appreciate that.
    Chairman Waxman. We have 5 minutes for each Member to ask 
questions. When the 5-minutes are up, if you are still 
answering the question, we let you complete it. But if a Member 
asks you a question, it is not an opportunity to start on a 
monolog. You have to answer the question because otherwise it 
uses up the 5-minutes. Let us be fair to each other.
    Ms. Doan. But what if they are really wrong?
    Chairman Waxman. Well then you have an opportunity to 
answer the question and correct the record, but not to go on 
and on and on about it. Five minutes could be used up like 
that. Mr. Tierney, I am going to allow you to continue and I am 
going to make up this time that has elapsed.
    Mr. Tierney. Thank you, Mr. Chairman. The importance of 
this is that you stated specifically what will happen in the 
future. So I think it is very relevant here to find out whether 
or not you have the intention of not promoting these people or 
not giving them bonuses or special awards or anything of that 
nature, as you used in your language. Keeping in mind, the 
Office of the Special Counsel found that there was nothing on 
their records that comported with your statement that they 
needed ``extensive rehabilitation'' or had poor performance.
    Ms. Doan. The Office of Special Counsel's record report is 
flawed. It omits critical evidence and it is riddled with 
errors. And I simply believe that it cannot be trusted. I have 
already commented on that in my comments in response to the 
report.
    I will tell you, as I tried to explain earlier, the 
performance review process at GSA has multiple levels and 
phases. Everybody at these meetings are not my direct reports. 
So I have no input into whether or not they are getting a 
performance review of this or that, or that rating, a bonus or 
not a bonus. That is their manager's determination.
    Mr. Tierney. So then why would you make a statement that 
they will not be getting promoted and they will not be getting 
bonuses or special awards? You seem to be pretty clear under 
oath there.
    Ms. Doan. No, we were still in the area of supposition and 
conjecture in my mind.
    Mr. Tierney. The word ``will'' is supposition and 
conjecture? ``They will not be getting promoted and they will 
not be getting bonuses.''
    Ms. Doan. Actually, I noticed as I went through the 
transcript that I have probably some problems sometimes with 
tense and as well as with personal pronouns. So you will see 
that there are some issues.
    Mr. Tierney. Let me suggest to you what the Office of 
Special Counsel thinks your problems are. ``In summary, none of 
the performance reviews indicate that any of the witnesses who 
provided testimony adverse to Ms. Doan were poor to totally 
inferior performers as she alleged. Thus, Administrator Doan's 
implication that the adverse witnesses were biased against her 
simply is not credible. Finally, it is troubling that the 
Administrator Doan made the above unsubstantiated allegations 
during an official investigation of her actions. It arguably 
indicates a willingness on her part, not only to use her 
position in a way that is threatening to anyone who would come 
forward, but also suggests a willingness to retaliate against 
anyone who would be so disloyal as to tell the truth about a 
matter that she confesses she does not remember.'' So he thinks 
that your recollection is particularly bad on that. And there 
are comments replete throughout the record on that situation.
    Ms. Doan. Well this is a good example because he chose not, 
or they chose not to actually mention another portion of my 
testimony where I talked about how the performances were 
occurring. And I actually commended some of the employees for 
certain portions of their performance. But they neglected to 
report these comments, and these are things that I pointed out 
in my response to the report.
    Mr. Tierney. But you did use the words, ``they will not be 
getting a promotion.'' And that, you want us to believe, is 
some sort of speculative or tense issue issues?
    Ms. Doan. You have to look at what came before. And yes, we 
were talking about what goes on in a process and how does a 
performance review process happen. But I will tell you, no, I 
do not retaliate and will not retaliate against employees 
because their advancement, their bonuses are based on 
performance.
    Mr. Tierney. And did you use the word that you ``will'' 
retaliate against them just for the fun of it under oath?
    Ms. Doan. This is unfair, Congressman. You have no facts to 
substantiate this.
    Mr. Tierney. It is not unfair. It is a direct question. It 
is a direct statement. I am reading from your statement.
    Ms. Doan. I do not and will not retaliate against 
employees. I have been the strongest advocate for my GSA 
employees and I will continue to be so.
    Mr. Tierney. Was it being a strong advocate when you said 
that rehabilitation was needed, their performance needed to be 
improved, they will not be getting promoted, they will not be 
getting bonuses?
    Ms. Doan. Congressman, I am all about improvement. And the 
answer there is, no.
    Chairman Waxman. The gentleman's time has expired.
    Mr. Davis of Virginia. Let me take 1 minute, Mr. Chairman.
    Chairman Waxman. Mr. Davis, for 1 minute.
    Mr. Davis of Virginia. Ms. Doan, did you say you were going 
to retaliate against them? He just alleged that you said you 
were going to retaliate against them. You never said that.
    Ms. Doan. No, they are putting words in my mouth.
    Mr. Davis of Virginia. That is not in the transcript. I 
have read the whole thing. This is conjecture and 
interpretation.
    Ms. Doan. Yes.
    Mr. Davis of Virginia. As I understand the situation, this 
was a 9 or 10 hour interview where they asked you to conjecture 
why employees may have said certain things. You referred back 
to some of them having employee reviews that may not have been 
``poor'' but they did not allow them to get bonuses. Is that 
correct?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. And you conjectured that maybe this 
was something. You did not bring this up, did you?
    Ms. Doan. I did not.
    Mr. Davis of Virginia. This was brought up by the 
questioners in what, the 9th hour?
    Ms. Doan. Well, it started in the 1st hour but again in the 
9th hour, throughout the entire 9 hours.
    Mr. Davis of Virginia. You did not even know who all these 
employees were, did you?
    Ms. Doan. No, I did not.
    Mr. Davis of Virginia. They did not share their testimony 
with you, did they?
    Ms. Doan. No, they did not.
    Mr. Davis of Virginia. So, this was all conjecture. You do 
not even in many of these cases have the authority to rate 
these employees, do you?
    Ms. Doan. No, they do not report to me.
    Mr. Davis of Virginia. So, if you wanted to retaliate, did 
you have the authority to retaliate?
    Ms. Doan. No, I do not.
    Mr. Davis of Virginia. Against any of them? Maybe one or 
two?
    Ms. Doan. This goes back to the first point. There were 
only one or two that were in my mind throughout this entire 
process because only one or two people report to me.
    Mr. Davis of Virginia. So this is just basically a wild 
goose chase. Thank you.
    Chairman Waxman. Mr. Mica is next.
    Mr. Mica. Thank you. Let me pursue that a bit. Chairman 
Waxman, in his opening comments, said this is an example of 
supervisors imposing their politics on employees. I am not very 
good at shorthand, but I took down his words. So you were 
imposing your politics on employees. Was this a Schedule C?
    Ms. Doan. Brown bag lunch, yes.
    Mr. Mica. All what, Presidential appointees?
    Ms. Doan. All Presidential appointees.
    Mr. Mica. And you were imposing your politics on these 
Presidential appointed employees. That is what you are guilty 
of, right?
    Ms. Doan. So the chairman says, yes.
    Mr. Mica. Again, I just about fell off my chair, just about 
spit up my coffee. And I saved the Washington Post when I read, 
after we thought we were going to get this handed to an 
impartial review, your alleged Hatch Act violations, to find 
out in fact that the draft was leaked to the Washington Post 
and the media before you got that. Is that correct?
    Ms. Doan. That is true.
    Mr. Mica. In fact, it was such a stumbling bumbling thing. 
I still wish to pursue, Mr. Chairman, either in a motion or 
just a request from you that the Oversight and Government 
Reform Committee investigate the leak of the draft of the Doan 
OSC report. How could we have a witness who we were 
investigating, and we really deferred to OSC to conduct the 
investigation and then get that information? That is where this 
was left. Then to have leaked the draft to the press. Now 
either the OSC, and I think they admitted to leaking it, but I 
want to find out who the individual is or if anyone cooperated 
on the staff of this committee.
    That is not the way this investigative committee should 
operate. Elaine Kaplan, who is Scott Bloch's predecessor, this 
is the OSC, has commented widely in the press. I do not know if 
you knew this, Ms. Doan, that the harsh report raises 
questions. Kaplan has suggested that Doan's comments may be a 
much more minor violation than Bloch is reporting. I asked you 
the question if you knew.
    And here is another report today about Bloch. I am trying 
to figure this out. He is an appointee. Now why is Bloch going 
after her in such a harsh manner? Here is today's Washington 
Post. ``Meanwhile, the Inspector General, again of the Office 
of Personnel Management, at the behest of the President's 
Office of Management and Budget, is examining a complaint by 
OSC staff members and others who accuse Bloch of interfering 
with Hatch Act cases.''
    This is absolutely astounding. You had some misfortune 
first of all. You know, you got into a little hassle over 
trying to do something about a bad diversity record at GSA. And 
you tried to move forward on a contract which never, 
incidentally, was executed. Is that right?
    Ms. Doan. That is true.
    Mr. Mica. They could not find anything there so they found 
this 26th meeting. Again, did you initiate that meeting?
    Ms. Doan. I did not.
    Mr. Mica. Did you receive the report beforehand?
    Ms. Doan. No.
    Mr. Mica. Who was invited to that?
    Ms. Doan. The political appointees were invited by the 
White House liaison.
    Mr. Mica. Had you ever been to or heard one of those 
before? Now this was in January.
    Ms. Doan. No.
    Mr. Mica. I guess at a political event like this, with 
political people----
    Ms. Doan. Well, it is a brown bag lunch.
    Mr. Mica. Maybe you had a false impression. Maybe Scott 
Jennings wanted to discuss spring planning protocols in 
Virginia. Do you think that was his----
    Ms. Doan. I thought we were going to have a motivational 
speech.
    Mr. Mica. OK. All right. The OSC, the Office of Special 
Counsel, admits that at least four different versions of your 
alleged comments have been reported; is that correct?
    Ms. Doan. Yes, but they vary quite a bit.
    Mr. Mica. OK. And so what they have tried to do today is, 
again, because you are a Republican, because you contributed to 
Republicans, because you are a minority Republican, and because 
you are a woman--the first time you came, I must admit, I 
thought they had you spooked a bit. But I want to tell you that 
today you creamed them. You have shot back. That is what you 
have to do. You said you were going to fight, you were not 
going to let them get you down. But counter them. Do not be 
afraid to counter them. And when they try to cut you off, you 
tell the context, do not give them a yes or no answer, you tell 
them the context in which they are trying to take your words 
out of context. Did you ever threaten any of these employees?
    Ms. Doan. No.
    Mr. Mica. Let me say, did you ever threaten any of the 
political appointees?
    Ms. Doan. No.
    Mr. Mica. Before or since?
    Ms. Doan. No.
    Chairman Waxman. The gentleman's time has expired. Ms. 
Watson.
    Ms. Watson. I want to thank the chairman for holding this 
hearing. It is very, very insightful. I have sat here through 
the testimony on both sides and I have heard the attacks on the 
Chair, the attacks on our former President and former people in 
service. I have heard Ms. Doan's responses. One thing that is 
very troubling to me is that race has been interjected into the 
hearing. I originally thought this hearing was about the Hatch 
Act and whether it was violated or not. And I want to ask this 
question directly to you, Mrs. Doan. Do you feel that you are 
being attacked because you are a woman and an African-American?
    Ms. Doan. I believe that this hearing has a completely 
different agenda that even I probably am not aware of and not 
experienced about. So, I think this is a political thing that 
is going on here.
    Ms. Watson. Can you give me a yes or a no.
    Ms. Doan. Because everybody keeps saying I am under oath, I 
do not think this is a race think, I think it is a political 
thing that is going on here.
    Ms. Watson. Oh, good. So you do not think it is because you 
are a woman or because you are Black?
    Ms. Doan. I try never to think in those terms.
    Ms. Watson. Can I get a yes or no.
    Ms. Doan. I do not know what the reality is here. What I 
know is that I try never to project those things onto others.
    Ms. Watson. Wait a minute. Can you give me a yes or a no on 
that question. I am asking you a direct question.
    Ms. Doan. I can tell you that I do not interject race and 
assume those motives to other people. I do not do that because 
it is not helpful.
    Ms. Watson. OK. Good. So let us dismiss--and I want to say 
this to the people who have injected race and gender into this 
questioning--that you feel that it is for another agenda but 
not about race and gender?
    Ms. Doan. No. What I said is I cannot begin to understand 
what everyone's agenda is. I only know about myself.
    Ms. Watson. OK. Fine. I am a female and I am African-
American and I resent the fact that race and gender is always 
thrown into it, because I do not feel that this committee or 
the chairman of this committee would ever bring you in front of 
us because you are a woman and because you are a Black. I hope 
we have an understanding on that, and I hope it will not be 
entered into this debate.
    My concern is about the Hatch Act. And I am going to ask 
you a direct question and I would like to get a direct answer. 
Did you violate the Hatch Act on that hearing under question 
when someone came in from the administration and talked about 
how we can get more Republicans elected? Do you feel that your 
actions, your presence violated the Hatch Act?
    Ms. Doan. I do not believe that I violated the Hatch Act, 
and that is what I believe I responded to the Office of Special 
Counsel in my letter that went back in response to their 
report. I do not recall, and I have tried to tell everyone what 
I did recall from that day. What is curious is that we have 
probably over 30 folks who attended that meeting, and 
apparently people have talked to part of them, but for whatever 
reason they chose not to talk to all of them. I do not know why 
we credit the few who appear to remember something but we do 
not credit the ones who say they remember nothing. There is a 
lot of stuff going on here that I do not understand what went 
into the flawed report. But it is what it is and, as I have 
said, I will live with it. I did my response and I have made my 
comments to the counsel.
    Ms. Watson. I am trying to get some direct answers and it 
is really difficult in this hearing.
    Ms. Doan. As I said, I do not believe I violated the Hatch 
Act, and then I tried to explain to you what I did to explain 
that.
    Ms. Watson. All right. Did you make any statements that 
would encourage your subordinates to go out and recruit more 
Republican candidates?
    Ms. Doan. As I said in my testimony, I find it hard to 
believe I did. I do not recollect making the statement the 
Office of Special Counsel says that they heard other people say 
that I made. But it is my belief that I do not recollect that. 
I tried as hard as I could to tell them everything else I 
remembered about the meeting. And as I said before, I respect 
the right of the Office of Special Counsel to make their 
decision. They have forwarded it on to the President----
    Ms. Watson. Reclaiming my time.
    Ms. Doan. Oh, I am sorry.
    Ms. Watson. I find that you equivocate. We have had two 
sets of hearings and I do not see you as a person who has 
faulty memory. Some things you can quote verbatim, you are 
looking at the testimony. I do not buy the fact that you do not 
remember, and it is my assessment that you have violated the 
Hatch Act.
    Ms. Doan. This is unfortunate. I am remembering----
    Ms. Watson. My time is up.
    Ms. Doan. I do not----
    Mr. Davis of Virginia. I do not think she needs to respond. 
It is an opinion.
    Mr. Chairman, could I take 1 of my minutes at this point?
    Chairman Waxman. Yes, Mr. Davis.
    Mr. Davis of Virginia. Let me just ask, the race and gender 
issue did not come from Ms. Doan. It was interjected on the 
other side today by introducing a 2-year-old e-mail that they 
had discovered from you, Ms. Doan, that you had sent to the 
administration where you talked about some of your 
qualifications for helping to raise the Republican message when 
you were looking to be head of the Small Business 
Administration.
    She has never brought this into the context. This was 
brought in by the other side and now they are trying to make it 
look like you are hiding behind it. This is the problem with 
these kind of hearings, it starts off going after one thing and 
it is a moving target. You have a lot of information you are 
supposed to be held accountable for. How in the world someone 
is supposed to know what e-mail they sent 2 years ago was is 
beyond me. I know I certainly could not do it.
    And just to finish up my time, OSC stated that it 
interviewed over 20 individuals in attendance at the Jennings 
presentation but they quote testimony from zero attendees. In 
their report, they stated they wanted to keep witnesses 
anonymous for their own protection. How can you retaliate 
against people if you do not even know who they are? They do 
not identify them by number, which they could have done, they 
omit any reference to their testimony at all. Do you have 
access to this?
    Ms. Doan. No, I do not.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Mr. Davis, I want to point out that the 
first reference at this hearing to the fact that Ms. Doan is 
African-American and a woman, which may be pertinent to the 
hearing, was in your opening statement.
    Mr. Davis of Virginia. But we did not talk about her being 
prosecuted for that reason. We just talked about her life 
experience.
    Chairman Waxman. Thank you. Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. Madam Administrator, 
the Hatch Act is a very personal thing with me. I was one of 
five so-called vulnerable Republicans that was a target of 
three Federal employees under the Clinton administration. They 
ended up being indicted for violating the Hatch Act in a dirty 
tricks operation against Republican Members of Congress. So 
this is very, very personal and very serious in my opinion. Now 
there may be people up here that feel that you might have said 
or did not say something at some meeting. None of us up here 
were at that meeting. There are those that claim to be at that 
meeting that say you said something, and you have said, no, you 
have not. I will take that at face value.
    When I hear somebody talk about a statement or an e-mail 
that you sent prior to being in public service, and especially 
those of us who are elected officials, and Mr. Chairman, I have 
just got to say, I hope to God that none of us has constituents 
that are going to take political statements or even brochures 
we sent out before we were elected, we all know we say things. 
And the perception of what we will do once we get into public 
services changes dramatically once you realize the rules of the 
game, get the briefing, and you actually get into it.
    And so I say in all fairness, I think it is really 
inappropriate, especially for elected officials, to say that 
somebody said these kind of statements before they started 
public service and, obviously, that is what they have done ever 
since. I think that is very unfair. And I hope to God none of 
us have people go back and look at our public statements before 
being elected and then bring it back up to us now and claim all 
of that has been our earmark since service.
    Mr. Chairman, at this time I would like to yield my time to 
the gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Ms. Doan, I think you are a remarkable person. I 
think you are a beautiful person. I regret that you have been 
treated the way you have been treated. They talk about it being 
an interrogation. We had last week a Democratic Member say I 
have a lot of questioning. But I have to say that after being 
here for eleven years, I hate it when witnesses are attacked. 
It bothers me, particularly when they are trying to do the best 
they can, in the words of Thurgood Marshall, with what they 
have. Well, with what you have, you have a lot. You have 
created an extraordinary business, you have given to charities, 
and you have shown an interest in politics, and frankly, in a 
very naive way, because you just wanted to help.
    I do not care what the press thinks about what I am going 
to say or anybody else. I just want to say to you that you are 
a remarkable person and you have been attacked and attacked and 
attacked and you have held your head up high. I just wish you 
would sometimes wait to let people finish the question because 
you answer a question they have not even asked you and then 
they twist it by saying, well, you know, whatever. I want to 
know who have you retaliated against?
    Ms. Doan. No one, to my knowledge.
    Mr. Shays. I would like someone in this hearing to tell me 
who she has retaliated against. Give me names. Give me names of 
people she has retaliated against.
    Chairman Waxman. Will the gentleman yield?
    Mr. Shays. Yes.
    Chairman Waxman. What Ms. Doan said to the Office of 
Special Counsel----
    Mr. Shays. I would like a name. All I want is a name. You 
asked her for a question, just give me a name.
    Chairman Waxman. OK. We will get the names of the people 
who testified about her to this committee, and those were the 
people she referred to as getting a poor performance standard 
when they did not.
    Mr. Shays. That is totally a misstatement.
    Chairman Waxman. And those were the people she said would 
never get bonuses.
    Mr. Shays. I reclaim my time. The bottom line is there is 
no name. You have not retaliated against anybody. And you are 
being accused of doing something in the future which you have 
not done. Then they talk about the fact that there was a 
performance rating, as if you retaliated against somebody. The 
facts are clear that happened before. I find this hearing 
astonishing. I just want to say, you have retaliated against no 
one, you have made an assessment of your employees fairly, you 
believe that some employees may not like you and you are being 
criticized for that. I think there are some employees in my own 
office that sometimes do not like me. And I know there are a 
lot of people who have worked for me that may not like me. You 
know what? I do not think that is a surprising thing to say. 
What is surprising is that you had to answer questions under 
interrogation for 9 hours, and this is it?
    This is it. All that we have come up with is a meeting 
should not have happened and maybe she said how can I help the 
candidates. That is it. There has to be a point where this 
hearing is ended and, if anything, owe her an apology for what 
you put her through. I yield back.
    Chairman Waxman. The gentleman's time has expired. The 
gentlelady from California, Ms. Watson wanted a half a minute, 
and I yield to her.
    Ms. Watson. Yes. I made a statement that race and gender 
was injected and then there was a response that it came from 
this side. I will get the recording of this hearing to show 
that I think it was the ranking member that first injected that 
and someone else on that side. But we will get the evidence and 
have it played, because I want to be sure Ms. Doan is not being 
targeted because she is a female and because she is an African-
American.
    Chairman Waxman. Thank you, Ms. Watson. Everybody is going 
to be investigating everybody here. [Laughter.]
    We will find out what is happening. Mr. Yarmuth, your turn 
for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. Ms. Doan, you I am 
sure do not know this, but before I came to Congress I was a 
writer and editor and I know good writing when I see it and 
when I hear it. And I want to commend you on your opening 
statement because I thought the Berlin reference was a nice 
touch as well as your use of the term ``gotchee.'' That gives 
me a segue into what I perceive is a typical response 
throughout this whole thing; which is, always to lay blame, 
question the motive of others, and I understand why you may 
want to question the motives of others, but it extends also to 
your attorney, and this is in relation to the leak of the 
Office of Special Counsel.
    Your attorney essentially charged this was a ``carefully 
planned campaign to cause maximum damage,'' and accused 
essentially the OSC of leaking the report. And in response, the 
Special Counsel Scott Bloch has claimed that actually someone 
from GSA has leaked the report. In a letter to your attorney in 
May, just a few weeks ago, he stated, ``Someone from GSA 
obtained a copy of OSC's report to your client from your client 
and then faxed it to the press.'' So I am going to ask you a 
series of questions about that just to get it on the record 
since you are now under oath. When did you receive your first 
copy of the OSC report?
    Ms. Doan. At 2 p.m. on Monday afternoon. The first 
reference in the media was 7:45 a.m. that morning.
    Mr. Yarmuth. OK. And how did you receive the copy of the 
report?
    Ms. Doan. It came by courier in a sealed envelop. There 
were folks who watched me undo the seal of the envelope and 
pull it out.
    Mr. Yarmuth. OK. Did you share the report with anyone at 
that time?
    Ms. Doan. It was really bad, so the answer to that is, no. 
What I did was I took it myself because I was a little 
concerned and I went to the photocopy machine and I made a copy 
for my Chief of Staff. He and I sat in my office, it took us a 
little while to read it, and we sat there together while we 
read it through the afternoon. But meanwhile, we had already I 
guess it was about 7 hours before started getting the questions 
from the press citing quotations from the report. So we kind of 
knew they already had it.
    Mr. Yarmuth. OK. Thank you for that. Now in response to----
    Ms. Doan. Oh, I am sorry. And Congresswoman Watson, I do 
not mean to make it look like I am not being clear. The one 
thing that is so odd about this is there are at least two 
reports. That is why I think you had that reference to it looks 
like it is a concerted attack. The report that I am talking 
about that I got is a May 18th report. Then there was this 
draft report that was actually already out there from May 17th. 
We never saw that one, ever, and even now to this day. I got it 
off the Internet.
    Mr. Yarmuth. OK. In relation to questioning that Mr. 
Tierney engaged in with you, you talked about this statement 
that you made ``until extensive rehabilitation of their 
performance occurs, they will not be getting promoted and will 
not be getting bonuses or special awards or anything of that 
nature.'' I have two questions. One is, you said sometimes you 
have a problem with tense. Basically, there are only three 
tenses.
    Ms. Doan. No, that is not true.
    Mr. Yarmuth. Past, present, and future.
    Ms. Doan. No. There is like present perfective, there is 
present progressive, past progressive, past--[laughter.]
    Mr. Yarmuth. Yes. But in the time continuum, that is 
grammar, but in the time continuum, it either happened, it is 
happening, or it will happen.
    Ms. Doan. Or it is ongoing as we talk.
    Mr. Yarmuth. I am trying to get a handle on exactly where 
the issue of tense might relate to whether or not you actually 
were speculating about what you might do, what you may have in 
fact done, or what you were in the process of doing?
    Ms. Doan. Well, I thought I was using like a hortatory 
subjunctive right there.
    Mr. Yarmuth. OK. One other question. You said you were not 
in a position to either deny benefits or promotions or so 
forth, or to provide awards to the people in question here. Are 
you familiar with the United States Code, Chapter 45, 4503, 
Agency Awards. It says: ``The head of an agency may pay a cash 
award to and incur necessary expense for the honorary 
recognition of an employee who by his suggestion, invention, 
superior accomplishment, or other personal effort contributes 
to the efficiency, economy, or other improvement of 
Government,'' blah, blah, blah. It also says that a cash award 
under this section, this is 4505(a), ``shall be equal to an 
amount determined appropriate by the head of the agency but may 
not be more than 10 percent of the employee's annual rate,'' so 
forth and so on. Does that seem to contradict the fact that you 
could have or had the power to reward or to deny awards to the 
people in question?
    Ms. Doan. I will admit I was not familiar with that code 
that you just read to me. We are going to make a note of it and 
look into it. I will tell you, though, there is a very big 
difference in the way that our performances are done and you 
have to segment the difference between a spot award, an 
individual award, a group award, and a bonus, which is based on 
performance. These are all different types of compensation 
available to employees and each one of them has different 
levels of authority and who makes the decision about it.
    Chairman Waxman. The gentleman's time has expired. Ms. 
Doan, you said you did not have the authority, now you find out 
you have the authority.
    Ms. Doan. Well, he just told me, and I appreciate that 
knowledge.
    Chairman Waxman. And you did not know that. I see.
    Ms. Doan. Well I think, with all due respect, Mr. Chairman, 
I try to allow my managers to make their own decisions because 
that usually works best since they know the people who report 
directly to them.
    Chairman Waxman. I am going to yield myself a minute. What 
is confusing me is you know about authority or you do not know 
about authority that you may or may not have when it is 
convenient for you at our hearing. You indicated to the 
Republican appointee head of the Office of Special Counsel that 
you will make sure these people do not get these bonuses. And 
then when you are asked by Mr. Tierney do you have the 
authority to retaliate, you said I do not have the authority. 
And now Mr. Yarmuth reads to you the provision that gives you 
the authority, and you said well I did not know I had that 
authority.
    Ms. Doan. No. I thought I said I was not aware of the code 
that he read to me, but I was happy to have heard it. We are 
going to look it up in its entirety. I also think that when I 
was talking to the investigators for the Office of the Special 
Counsel we were still in the area of conjecture about how you 
do things.
    Chairman Waxman. I know. You have already told us that 
future tense sentence did not mean it because you did not know 
future tense or you know something about a hortatory something 
or other. I kind of feel like Tony Soprano. The point is, you 
either know or you do not know about the authority you have. 
And it looked like, according to a strict reading of those 
words, that you in the future will use your authority to make 
sure they do not get the rewards, they do not get the bonuses, 
they do not get whatever benefits they might otherwise get.
    Ms. Doan. That is incorrect.
    Chairman Waxman. OK. Those words do not mean what they say?
    Mr. Davis of Virginia. Mr. Chairman, let me take 1 minute, 
if I could.
    Chairman Waxman. The gentleman is recognized.
    Mr. Davis of Virginia. I will give myself 2 minutes, if 
that is all right. Two minutes of my time. First of all, I 
think it is very, very clear they are beating a dead horse at 
this point. As the head of the agency, I guess you have 
ultimate authority to do all kinds of things. But as I 
understand it, you do not get into the performance ratings and 
that the individuals in question, some of them at least, had 
threes, which did not qualify them for a bonus.
    Ms. Doan. True.
    Mr. Davis of Virginia. You could not do that. And there is 
zero, zero evidence that you retaliated against anybody.
    Ms. Doan. True.
    Mr. Davis of Virginia. You did in a speculative question 
that they asked you under seal, which was never supposed to 
come out to the public, you said, well, they might have had 
performance problems. And frankly, if they did not get a three 
or whatever, they could not get a bonus anyway.
    But I am beginning to just see this hearing as kind of a 
waste of time. What are we doing? We ought to be talking about 
why can we not close our border, why do we have constant 
gasoline shortages, how can children in foster care systems end 
up abused, why does it cost so much to adopt, why is it so hard 
for American businesses to hire qualified students from other 
countries, how well does foreign trade serve small businesses, 
why is it so hard to build a nuclear plant in America, what are 
the plans to repair our interstate highways, what did Speaker 
Pelosi tell Syria when she visited there, what are we doing to 
stop terrorists, what are we doing to reduce gang violence, 
what are we doing to stop human trafficking, how is the war on 
drugs going, what can be done to improve security clearance 
backlogs and processing, why have we not examined first 
responder interoperability closer, how is National Guard 
readiness. Those are the issues we ought to be focusing on, not 
who said what in an e-mail 2 years ago.
    But let me ask you while I have you here, what issues at 
GSA alone could the committee look at that would help you 
improve and help the American taxpayers to help improve the 
effectiveness of the agency?
    Ms. Doan. First and foremost is the important role that 
procurement officers play in our mission and what can we do to 
attract more into government service, how can we protect them, 
how can we stand up for them, and how can we make sure that 
there is effective balance in their actions and the work that 
they do that is so critical to our agency. This is the pivotal 
issue facing GSA right now.
    Chairman Waxman. Mr. Souder.
    Mr. Souder. I thank the chairman. I am going to use my 5 
minutes while you are here to actually raise a substantive GSA 
issue rather than the latest rounds of I gotcha games. It is 
actually somewhat ironic because as a Republican who got only 
54 percent last time, I have found that the GSA has been 
incredibly unfair to the people of my district. And so I 
certainly was not the beneficiary of any bias. I want to lay 
out the issue for the record and hope we can do followup.
    We have a new social security office in the city of Fort 
Wayne and it has been built at the edge of the city where there 
is no mass transit access. Point one is, this is now the second 
time GSA has done this to Fort Wayne, a city of 240,000 people. 
The last time was a disability office where they put it beyond 
bus transit access. The second point is that they did contact 
the city of Fort Wayne for a suggested site, then after they 
got the recommended site they redid the map that excluded the 
site by one block.
    Then GSA sent the bid out and the bidder that was selected 
happens to be not from our area and has won almost all the 
regional bids, including for the other office. Apparently, and 
the only reason we know, because apparently these bids are not 
made public, the losing bidder came to us and complained about 
the process because he thought there was a requirement that you 
had to have mass transit, which apparently there is not. The 
next point would be that GSA then explained to us that the 
second bid would have cost the GSA $30,000 more a month, or 
$360,000 more a year. But now because mass transit is required, 
it is just unclear whether it has to be accommodated in the 
building, the city of Fort Wayne may be paying up to $1.2 
million a year to get mass transit there. Now taxpayers are 
taxpayers. The fact is this is a net loss to taxpayers of 
$850,000 and right now we are having trouble trying to figure 
out how to do it.
    This raises some fundamental bidding process questions, 
some fundamental requirement questions. I would hope that GSA 
and social security will continue to work with us for some kind 
of a compromise of how we can work this through. The building 
is up. Oh, by the way, they did not inform our office or the 
city that the building was being built.
    So unless you happened to find some little obscure thing in 
a massive Congressional Record or hire a beltway bandit to look 
for it. They told us that they could not tell us that they were 
building this building because of Homeland Security concerns 
when you build a government building. This is kind of bizarre. 
I know the Oklahoma City bombing question and all this kind of 
thing.
    But it is not like this is a secret. It is standing there 
now. It has been on all the TV stations. It is sitting outside 
the city. Seniors are calling my office, low income people are 
calling my office, just like they did with the disability 
office.
    Now, I would like to be able to work with the chairman and 
the Oversight Committee because if, indeed, the law does not 
require it in a major metro area where bus access is, it 
should. Second, there needs to be a more open and transparent 
bidding process. We are getting flooded now with people who say 
we have buildings in this area, we can meet the requirements. 
They did not have any way of knowing that a bid was out. Unless 
they hire somebody from inside Washington to figure out between 
March 15th at 2 and March 17th at 5, they do not know what is 
being built. It gives inside bidders incredible opportunity. 
Then the few people who figure it out sometimes are 
inexperienced and do not kind of know what the bidding process 
is, so one guy keeps cleaning up and getting all these type of 
bids. And, once again, we are burned on the mass transit 
question.
    I wanted to raise those questions to you. I look forward to 
continuing to work with it. But I believe it is something 
substantive our committee ought to be looking at because 
seniors who cannot drive, seniors who do not have a car need to 
have a relative, a friend, or somebody get them there if they 
cannot use mass transit. This is just an unbelievable 
discouraging thing to happen twice in my home area.
    Ms. Doan. Congressman, please give me an opportunity to 
work with your team and with the people in Fort Wayne, let our 
regional folks take a look at this if something is wrong. These 
are the kind of issues that I want to be here to try to 
resolve, to try to expedite the process, make it transparent, 
and be held accountable for our actions. So please allow GSA 
the opportunity to respond back to you. I was not aware of 
this. I will be looking into it.
    Mr. Souder. Thank you, Mr. Chairman. I want to make sure it 
is on the public record so nobody thinks she is doing it 
because I am a Republican. [Laughter.]
    Mr. Issa. Would the gentleman yield?
    Mr. Souder. I will yield my last 30 seconds.
    Mr. Issa. Thank you. I would add to that I do think the 
issues of national bundling, a lot of the other issues that 
this committee historically has worked on, and the Committee on 
Small Business, are also appropriate. Being a Vassar graduate, 
I hope you will appreciate that, as a Kent State graduate, I 
know an awful lot of small business people who definitely would 
appreciate your having time to focus on that. And I appreciate 
your agreeing to do so. I yield back.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Welch.
    Mr. Welch. Thank you, Mr. Chairman. Ms. Doan, when you 
testified here on March 28th, I asked you several times, 
repeatedly, in fact, whether you as the head of the agency 
believed that the political presentation by the White House at 
your offices was appropriate. I asked whether you thought it 
was a proper use of taxpayer money and Federal Government 
resources to be discussing political tactics and political 
strategies for winning Republican congressional seats.
    Every time I asked you the question you refused to answer 
it, stating that there was an ongoing investigation by the 
Office of Special Counsel. I emphatically disagreed with your 
refusal to answer the question. Nevertheless, the OSC 
investigation is now over, as you know, and I would like an 
answer to my question. So today, after you have examined the 
issue backward and forwards, do you believe it is appropriate 
to gather together Federal Government officials on Federal 
property during work hours to discuss how to help Republican 
candidates win congressional seats in future elections?
    Ms. Doan. Congressman Welch, actually, the Office of 
Special Counsel's investigation on the Power Point presentation 
is not concluded, and they said so in the report and the letter 
they sent to the President. But what I can tell you is that 
while I will not Monday morning quarterback, what I have tried 
to do, especially given the concern of this committee, is take 
action. One of the things I have done is I have initiated 
processes to fully review future presentations.
    Mr. Welch. That is not my question. Ms. Doan, I would 
appreciate it if you would answer my question. If you are going 
to refuse to answer it, you can tell me you are going to refuse 
to answer the question. But it is not helpful to me for you to 
answer a question that I did not ask.
    Ms. Doan. Oh, I am sorry. I was trying to correct a 
misstatement. You misstated when you said that the 
investigation was closed on the presentation, and it was not.
    Mr. Welch. I have a letter here that was just handed to me. 
It is the U.S. Office of Special Counsel, dated June 8th, 
stating that the Office of Special Counsel has completed its 
investigation into the Hatch Act allegations.
    Ms. Doan. No. They completed the investigation into the 
alleged statement. But later on in that--I do not know if the 
young lady has it--if you go a few more pages into it, they 
will actually say that they have not yet finished their 
investigation into the Power Point presentation.
    Mr. Welch. OK. It is kind of hard getting our questions 
answered when you spend a lot of my time answering questions 
that I did not ask. Basically, the situation is this. With 
respect to the Hatch Act investigation, the Special Counsel 
says that his investigation is over. You say it is not.
    Ms. Doan. No. That is not what I said, Congressman.
    Mr. Welch. Hold on. Let me just ask this. Do you believe, 
or are you willing to answer now whether you believe, that it 
is proper to gather together Federal Government officials on 
Federal property during work hours to discuss how to help 
Republican candidates win congressional seats in future 
elections?
    Ms. Doan. I will not Monday morning quarterback, and I will 
not prejudge the Office of Special Counsel's decision in that 
matter.
    Mr. Welch. No. I am asking you.
    Ms. Doan. I have just given you my straight answer. I am 
not going to give you a yes or a no, which is what you are 
trying to do, because I do not know. I am not a legal person. I 
am not a Hatch Act expert. I guess that is why I am here.
    Mr. Welch. But you are the head of a governmental agency. 
So you do not have an opinion?
    Ms. Doan. And you did not want my answer when I said I am 
trying very hard, I have put in place processes to vet any kind 
of presentation and the person who comes.
    Mr. Welch. Let me ask you this. If the White House called 
you up and said Mr. Rove is coming over, great news, and he has 
a Power Point presentation and he can identify the 10 
congressional candidates that your office can do the most for, 
let us have a nice lunch, are you saying you would say come on 
over, or would you say you cannot come?
    Ms. Doan. I would say we have put in place a process. 
Follow our process, send it to our ethics officer and that 
ethics officer will review any person and any presentation who 
is coming to our agency. Because I am focused on the mission 
and I just want to get our mission accomplished. So we have a 
process in place now.
    Mr. Welch. So you will not answer?
    Ms. Doan. That is the answer. We are going to send it to 
the process.
    Mr. Welch. You know, on June 1st, one of your attorneys, 
Mr. Nardotti wrote a letter stating that the White House Power 
Point presentation on its face raises Hatch Act concerns. That 
is your attorney.
    Ms. Doan. General Nardotti, yes.
    Mr. Welch. I assume you agree with your attorney. Is that 
correct?
    Ms. Doan. That was actually a statement of the open 
investigation, as I mentioned, that is ongoing right now by the 
Office of Special Counsel. I think it says something like it 
may----
    Mr. Welch. Do you agree with your attorney?
    Ms. Doan. Yes. There is an open investigation right now on 
the Power Point presentation.
    Mr. Welch. No. No. He said that the Power Point 
presentation on its face raises Hatch Act concerns. The 
question is very simple. Do you agree with that or not?
    Ms. Doan. I said yes, it is public knowledge that the 
Office of Special Counsel is looking into this matter. That is 
what the whole sentence says, if you read that in the letter.
    Mr. Welch. Mr. Nardotti also gave an interview in which he 
stated that the White House demonstrated a lack of 
responsibility when it presented this briefing to you. Let me 
ask you this. Do you agree----
    Chairman Waxman. The gentleman's time has expired. Do you 
have an outstanding question you want to ask? Have you 
completed your question?
    Mr. Welch. I do.
    Mr. Issa. Mr. Chairman, are you yielding the Member 
additional time?
    Chairman Waxman. The gentleman is given an additional 30 
seconds.
    Mr. Welch. Do you agree with your counsel that the White 
House has demonstrated a lack of responsibility for this?
    Ms. Doan. I will simply say the letter speaks for itself in 
its entirety.
    Chairman Waxman. The gentleman's time has expired. Mr. 
Issa.
    Mr. Issa. Thank you. I am going to use my time to give you 
an opportunity to answer these questions the way they should 
have been able to be answered. You know, ask a question, if 
there is a flaw in the question you should be able to point out 
the flaw. Let us start with, as I understand, the question that 
was asked by a previous interrogator had a flaw in it. Would 
you like to explain why that was a flaw so people understand. 
You were attempting not only to answer but to answer in a way 
that we would get the best understanding.
    Ms. Doan. Yes. The way the Office of the Special Counsel 
chose to pursue this is they investigated only an alleged 
statement, and that is what the report is discussing. There is 
a second investigation which is ongoing even as we speak into 
the Power Point presentation itself and its contents, and that 
has not been resolved.
    Mr. Issa. OK. So if I can characterize the full truth here. 
They have closed the investigation as to whether or not this 
one statement you made at the end of a briefing in which you 
spent a lot of time knowing that there were cookies there and 
working on your Blackberries, that, in fact, is going to the 
President.
    Ms. Doan. It is at the President.
    Mr. Issa. It is at the President and he will make a 
decision about whether or not----
    Ms. Doan. And I will live with it.
    Mr. Issa. And we all will live with it. That is the law. 
However, the underlying question that is alluded to here is 
whether or not the very public concept that apparently came out 
of some people involved with the President of putting these 
informative slide shows together and so on for candidates, 
whether that crossed the line or not, which is a legal question 
you are not able to answer. But that is still underway, as far 
as you know?
    Ms. Doan. Yes, it is.
    Mr. Issa. And we will live with the decision there, too, I 
am sure. The other question that was cutoff, as I understand 
it, you have implemented a policy that is more than just a non-
lawyer skilled business woman making a decision on something 
that you have not seen but somebody is saying I want to come 
over and present something. As I understand it, you have 
implemented a program where that presentation must be 
prescreened by an ethics expert before it is given, no matter 
what the source. Is that correct?
    Ms. Doan. That is true, and it is for every office within 
GSA.
    Mr. Issa. You know what I find amazing is that here in 
Congress, on both sides of the isle, we caucus and talk about 
each other's--We draw the line. We do not talk about 
fundraising, but we talk about how to defeat the other party 
and how to deal with candidates and who is vulnerable. We do 
that in conferences here all the time. It is a little bit of 
hubris that one body cannot do something without the other body 
pretending that we do not do what we do. The activities that go 
on inside Members' offices and even in conferences with 200 
Members would amaze you.
    Chairman Waxman. Did you want to yield to me?
    Mr. Issa. Of course, Mr. Chairman.
    Chairman Waxman. There is a very big distinction between 
political candidates and people in Congress and even at the 
White House in the political office and the head of the General 
Services Administration.
    Mr. Issa. In reclaiming my time, and not for a minute do I 
pretend that there is not a difference, but it is sort of 
interesting that the very idea that Republicans might meet as 
Republicans is a little disingenuous to the public. The fact 
is, our rules are different. And I know that you are going to 
live with the outcome of the rules, but there are also rules 
for the Office of the Special Counsel or inquisitor or 
interrogator or prosecutor, as they have been more 
appropriately called today. Would it surprise you to know that 
the Special Counsel on April 26th disparaged you? That, in 
fact, they said you had amnesia? And they did that before Mr. 
Waxman and his committee. Would that surprise you?
    Ms. Doan. Yes.
    Mr. Issa. Well, it was actually before his committee staff. 
That would surprise you? Well, it does not surprise me because 
it happened. And so here you have the staff, these appointees 
if you will, these employees who are supposed to be so 
unbiased, and they are coming before the biased committees and 
they are disparaging you prior to that time. Would it also 
surprise you to know that next week the Office of Special 
Counsel will be here asking Chairman Waxman for 
reauthorization?
    Ms. Doan. Yes, that would surprise me.
    Mr. Issa. Well, it is going to happen. And would it 
surprise you that a good showing of toughness might in the back 
of the mind of the Special Counsel somehow benefit that 
reauthorization? Would that surprise you? Do not speculate, 
please do not speculate.
    Ms. Doan. I am not. I am trying to learn from experience.
    Ms. Norton. I must object, Mr. Chairman. I know that you 
are long suffering.
    Mr. Issa. Well, hold on a second. This is my time.
    Ms. Norton. Yes, but I object. If you could take down 
words, that is what I would be doing. You have cast aspersions 
on the chairman with no predicate of evidence in doing so.
    Chairman Waxman. Gentlelady, thank you for your support. 
The gentleman has another few seconds of his time left.
    Mr. Issa. In reclaiming the time I would have had, just to 
answer, I was actually disparaging if you will, the conduct of 
the Special Counsel in coming and disparaging this lady before 
committee. I am not for a minute believing that the chairman 
would look toward reauthorization based on this preferential 
and unreasonable conduct that appears to have gone on by the 
Special Counsel. I trust the chairman will be fair in all 
things. I yield back.
    Chairman Waxman. Boy, am I glad that I gave you that extra 
time. Whose turn is it now? Mr. Sarbanes, I think you are next.
    Mr. Sarbanes. Thank you, Mr. Chairman. I hope that my 
mother is watching. She is a Latin teacher and I am just going 
to take issue with your citing of the hortatory subjunctive. 
The actual tense that was used in the statement about ``will 
not be getting promoted'' and so forth, that is just clearly 
the future tense. It is not future perfect or future pluperfect 
or anything of that nature. Actually, the best example of the 
use of hortatory subjunctive is the statement, ``How can we 
help our candidates.''.
    Ms. Doan. No.
    Mr. Sarbanes. Yes, because the hortatory subjunctive is 
used when you are exhorting people to do something, which is 
exactly what that statement was. That was an exhortation in the 
subjunctive tense, not using the word ``let's'' as it is 
usually seen, but using this other construction of, ``How can 
we help our candidates.'' I just wanted to correct the record 
on that. We can debate it after if you would like.
    I agree with Congressman Shays that you are a truly 
remarkable person. I do not think I have ever seen a witness 
have this much fun or view the interchange with the committee 
as a sport in the way that you have. The lack of contrition and 
humility that you have displayed to me and this committee is, 
frankly, truly breathtaking. But let me dispense with the 
introductory remarks.
    Let me ask you about the statement that allegedly was made, 
``How can we help our candidates.'' Do you agree that if that 
statement had been made that it would have been a violation of 
the Hatch Act? I know you claim that you do not remember making 
it.
    Ms. Doan. No, I do not remember making it. But I have to 
tell you, I am not sure I would be able to say a yes or no 
unless I understood the context. In fact, there is actually a 
long discussion from the Office of Special Counsel people in 
the testimony on that. It depends on what did it lead off with, 
what was happening in the middle. There is a whole lot of stuff 
going on there that I do not want to get involved in.
    Mr. Sarbanes. Let me ask you another question. Your 
attorney appeared to agree initially, in some testimony we have 
here, that you do not remember whether you said that or not. 
But then later, it is Mr. Nardotti----
    Ms. Doan. General Nardotti.
    Mr. Sarbanes. Yes. He said, ``It appears that Administrator 
Doan's alleged question at the end of the presentation was not 
directed to the GSA Presidential appointees but to Mr. 
Jennings.'' So I am confused. He appears to be conceding the 
statement but just sort of disputing who it was addressed to. 
Yet in another place he is agreeing with you that it did not 
happen.
    Ms. Doan. No. I think what he was trying to do was provide 
context of if you did this, it is X, if you did this, it might 
be Y, if you did this, the end result might be Z. Since he is 
right there, you probably ought to talk directly to him.
    Mr. Sarbanes. OK. And context is very important. You have 
used the word context I think hundreds of times in the course 
of this, and we are trying to get as much context as we 
possibly can. Let me ask you this. You understand the Hatch 
Act, clearly. If you did not before the hearings, we all 
certainly understand it now. Would you agree that there is 
different gradations of violation of the Hatch Act? I mean, 
there is degrees to which a violation can occur.
    Ms. Doan. Yes, there appears to be degrees.
    Mr. Sarbanes. And if you looked at sort of indirect 
political statements or activity occurring sort of down in the 
rank and file level, that is a less egregious kind of violation 
of the Hatch Act than you might have if you had a high level 
official engaged in more direct sort of political exhortation. 
Would you agree with that?
    Ms. Doan. No, I would not. I would have to know more about 
all the scenarios surrounding it. As I said before, I am not a 
Hatch Act expert, although I have obviously read up on it as 
much as possible in preparation for my stuff. But there is a 
lot that apparently goes into the decisionmaking when the Merit 
Protection Board evaluates the Hatch Act. So I do not even want 
to try to speculate, Congressman.
    Mr. Sarbanes. The statement, some on the other side have 
dismissed this statement as, you know, it is just one 
statement, one sentence, it was one remark. I am assuming it 
happened. It was one remark. So it does not mean that even if 
it happened, it was a little thing and we are making this huge 
deal out of it. But that is everything. That statement is 
everything, particularly if it is a statement made by a person 
who is as direct as you are. I mean, I do not see you, based on 
your testimony here today, being somebody who is a wallflower 
at a meeting. I just cannot imagine that. So if you take the 
directness of your personality and you combine it with a 
statement, a very loaded statement like that, the combination 
of that I think is very plausibly a serious violation of the 
Hatch Act. And I notice you said here----
    Chairman Waxman. Mr. Sarbanes, your time has expired.
    Mr. Sarbanes. I am sorry. Let me just finish my noting that 
you said in your testimony, ``One of the best things about me 
is that I am direct. Of course, that is probably also one of 
the worst things about me.'' In combination with that 
statement, I think it did have a terrible affect inside the 
agency. Thank you, Mr. Chairman.
    Ms. Doan. This is a leap in logic.
    Chairman Waxman. The gentleman's time is expired. Ms. Doan, 
we have a very few more questions of Members. But I think it 
would be appropriate to take a break for 10 minutes and then we 
will come back and conclude the hearings.
    Ms. Doan. Thanks.
    Mr. Shays. Mr. Chairman, how many Members are left? I am 
just curious, how many Members do we have left? I have my time. 
Who else has time?
    Chairman Waxman. That is not pertinent.
    Mr. Shays. I am just asking.
    Chairman Waxman. We are going to take a break and then we 
will be glad to give you the information.
    [Recess.]
    Chairman Waxman. The committee will come back to order.
    The next person to question the witness is Ms. Norton. You 
are recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Ms. Doan, as you know, 
I have come to know you and certainly to admire you personally. 
I know you in connection with my own jurisdiction over the GSA 
and other----
    Ms. Doan. Excuse me, Congresswoman, could you talk just a 
tad louder.
    Ms. Norton. As I said when we had our last hearing, I have 
come to know you and to admire you personally, this out of our 
contact with you in my jurisdiction of my subcommittee in 
another committee. If I did not know how sophisticated you were 
and that the administration apparently acknowledged that it has 
done this with upwards of 20 agencies, I would think of you as 
a babe in the woods given what has been found. As you know, I 
believe everybody is accountable for her own actions. But I am 
quite amazed that White House personnel would have put any 
agency head in this position, even though they know or should 
have known of how to behave and react.
    Ms. Doan, this matter is here this time in a wholly 
different posture where findings have been made, where 
conclusions have been drawn by an independent body, at least 
one not connected with us. And I recall that at the last 
hearing you said that you would live with the findings. You 
acknowledged that the Office of Special Counsel is independent 
and impartial. Are you still willing, given what the Office has 
found, to live with it; that is, to accept its findings?
    Ms. Doan. The answer, if I could just say right off the 
bat, is, yes. There are two parts. There is the Office of 
Special Counsel's final draft. I am allowed to comment on the 
draft. The two are put together with a cover letter----
    Ms. Norton. We want your comment on the draft now.
    Ms. Doan. No, no, no. I am saying----
    Ms. Norton. Your draft has been sent to the President.
    Ms. Doan. And we are done. There is nothing more to be 
said.
    Ms. Norton. Done is the word for it. Now I am asking you a 
question, and I am held to my 5 minutes. In light of what you 
said at the last hearing, are you willing to live with the 
findings of the Special Counsel now that they have been made?
    Ms. Doan. I am willing to live with the combination of the 
report, which is what I was talking about. I will live with the 
report, which is his findings and my comments to his findings, 
and his recommendation to the President.
    Ms. Norton. So you do not accept his findings then?
    Ms. Doan. This report is flawed.
    Ms. Norton. When you refused to answer our questions 
before, you constantly referred to the impartial body that was 
considering this matter. It has now considered. It has now made 
its findings. It has now made conclusion. Those were not the 
conclusions and findings of this committee. Now you said you 
would live with them. I am asking you, are you willing to live 
with those findings as you told us you would?
    Ms. Doan. It is a flawed report and I accept that they are 
allowed to submit that report and I must live with it. But 
these are two different issues.
    Ms. Norton. Do you accept that they are an impartial body 
not connected with this committee or with you or with anybody 
else of interest or of imputed interest in this matter?
    Ms. Doan. I do not believe that this report was impartial. 
I believe it was flawed. It omitted critical information. But 
whatever the findings are, I have decided, as I said in the 
last meeting, that I will live with the President's decision. 
The findings, the report has gone to the President. It is on 
his desk. Whatever it is----
    Ms. Norton. Ms. Doan, reclaiming my time, you have to live 
with the President's ultimate decision.
    Ms. Doan. Yes. We all must do that.
    Ms. Norton. You are, of course, contesting. So you are 
living with it but you are contesting the impartial findings.
    Ms. Doan. No, no. I am not contesting the President's 
decision.
    Ms. Norton. You know, if you would listen to my questions 
you would not answer some other question.
    Ms. Doan. OK. That is fair.
    Ms. Norton. Because I am not interested in the President's 
findings because he has not issued them. You are contesting the 
findings and conclusions of the impartial body that you 
yourself said was independent and impartial; is that not the 
case? Yes or no.
    Ms. Doan. Yes, it is because that is part of the process. 
The report has two parts. Mr. Bloch's cover letter----
    Ms. Norton. I do not need you once again to take me to 
school on the report, thank you.
    Ms. Doan. Yes. But Mr. Bloch's cover letter explains the 
process and he tells you in the cover letter there are two 
parts to it, his findings and I am allowed to comment on it. It 
will not be changed----
    Ms. Norton. I have just said that, Ms. Doan.
    Ms. Doan. OK. I am sorry.
    Ms. Norton. That you yourself were allowed to make your own 
comments. Let us talk about the comments.
    Ms. Doan. Yes, please.
    Ms. Norton. The impartial and independent Office of Special 
Counsel used language that it seems to me anybody would take 
seriously. This is a body that looks at Hatch Act violations, 
could imagine no greater violation of the Hatch Act, pointing 
at you using the machinery of the agency for partisan campaign 
to retake the Congress and certain Governors' mansions.
    Chairman Waxman. The gentlelady's time has expired.
    Ms. Norton. Could I just ask the question. Your attorney 
called this report reckless and inflammatory, overblown. Do you 
believe that these findings by the impartial and independent 
Office of Special Counsel are inflammatory and reckless, etc?
    Ms. Doan. I believe they are inflammatory, showing leaps in 
logic totally unsubstantiated by the facts. And I think if you 
look at the sheer number of errors, I am not going to say that 
some of them----
    Ms. Norton. Why do you think the Special Counsel went out 
of its way to be reckless with you?
    Ms. Doan. I do not know. That is a question I really would 
love to have an answer to. I do not know.
    Chairman Waxman. The gentlelady's time has expired.
    Mr. Davis of Virginia. Mr. Chairman, may I take 1 minute?
    Chairman Waxman. Yes, Mr. Davis.
    Mr. Davis of Virginia. Thank you. Look, the OSC makes its 
finding, she makes her retort, and the President makes the 
decision. That is the process. She is going to live with it. It 
is not complicated. We know what she thinks of the report 
because they wrote a 15 page or so rebuttal to that. That is on 
the record. We do not need to waste our time going through 
that.
    But it is not just Ms. Doan who takes exception to the 
report. Elaine Kaplan, by the way, I believe a Democrat 
appointee, who was Mr. Bloch's predecessor, has commented 
widely in the press that the harsh report raises a number of 
questions. She suggested that her comments may be much more 
minor violations than Mr. Bloch is reporting. She adds that 
there are nuances here that have not been carefully explored. 
Her comments may have been getting the employees to take action 
in their private capacity, it could have been construed that 
way, a point I raised earlier. Given this was a group of 
political appointees, such a statement would not be nearly as 
harmful. The report glosses over the fact that each of the 
employees that attended the briefing was a Presidential 
appointee rather than a civil servant and thus the core 
concerns of the Hatch Act were not implicated.
    Now there are other issues that are raised. But it is not 
just her that is questioning the OSC's report. I just think the 
record should reflect that.
    Chairman Waxman. The gentleman's time has expired. The 
Chair is going to yield himself 5 minutes. The report has been 
concluded but the Office of Special Counsel and the 
recommendations of the Office of Special Counsel is that you be 
given the maximum possible penalty for violating the Hatch Act, 
which would be firing. Now people could disagree with the 
report, they could disagree with the recommendations. The 
President will make his own decision.
    Ms. Doan, I want to ask about conflicting statements that 
you seem to be making quite frequently, and I am using that 
present tense but it is also past. When you testified before 
our committee at our March hearing you repeatedly claimed you 
could not recall any information about the January 26, 2007 
meeting or the White House political presentation. You had 
absolutely no memory of asking GSA employees how they could 
help Republican candidates in the upcoming elections. That is 
what you told us. We questioned you over and over again. You 
remembered there were cookies, you remembered you came in late, 
you remembered that some employees did not attend, but beyond 
that you told us you had no further information. Five weeks 
later you testified before the Office of Special Counsel and 
suddenly you had new and rich details about the meeting and 
your statements. According to your own OSC testimony, you said 
you asked the White House presenter ``how can GSA help its 
cabinet liaison understand that the opening of the San 
Francisco Federal Building would be a perfect event for 
President Bush to attend.'' Did you say that to the Office of 
Special Counsel?
    Ms. Doan. Yes, I believe I did.
    Chairman Waxman. You also told them that Mr. Jennings 
suggested you write a white paper or a one-pager explaining why 
it would be relevant for the President to attend. But you did 
not tell that to our committee. During your interview with the 
OSC, you testified you had refrained from providing this 
committee with full information about the meeting. You 
testified that you were advised not to engage in a 
``substantive discussion'' of the political briefing, that you 
believed that OSC investigators should have ``first dibs'' on 
this information. That makes it sound like when you told us you 
did not recall you were really holding back information. You 
did tell us under oath that you did not remember, and then you 
told the Special Counsel under oath that you did remember and 
you were even saving the information for him. When you appear 
before this committee and you testify under oath, you are 
supposed to testify honestly and completely. That is an 
obligation that people have and it is to be taken seriously. 
And I put that out there.
    Then the last time you testified before this committee 
several Members expressed concern about the veracity of your 
responses. Reading the report of the Office of Special Counsel, 
it looks like they shared that concern as well. You told the 
Office of Special Counsel that one of the many reasons you 
could not recall Mr. Jennings' Power Point presentation was 
that you were using your Blackberry. Is that not correct?
    Ms. Doan. Yes, it was.
    Chairman Waxman. Then the Office of the Special Counsel did 
something I find a little surprising, but makes sense. They 
asked you to turn over your Blackberry. And they looked at 
documents to see whether it corroborated that you were using 
your Blackberry. They said that you provided no documents to 
corroborate that you ``read, sent, composed, deleted, or 
moved`` any e-mails during that January 26, 2007 meeting.
    Ms. Doan. That was one of the critical omissions that I 
have mentioned throughout this hearing, Mr. Chairman. They 
omitted to mention that there 220 e-mails in my inbox. And as I 
said in my testimony, I think my direct statement was that I 
was reviewing e-mails during that time and looking up 
occasionally. That is what I actually said to the OSC.
    Chairman Waxman. Now another allegation made against you 
was that after the White House presentation you asked how to 
get a prominent Republican like Senator Martinez to attend a 
courthouse opening in Miami. When OSC asked you about this 
allegation you said that you do not believe that there was ever 
a discussion of Miami at all at the meeting. Not at all, you 
said. But then we had 10 GSA officials testify under oath that 
they remembered the discussion of the Florida courthouse and 
your statement about getting Senator Martinez to attend the 
event.
    Well, there is also the question that you said you just 
thanked Mr. Jennings when he got there and you left. But then 
others testified, including your own GSA liaison, that is J.B. 
Horton, he told OSC investigators that you gave Mr. Jennings a 
tour of your office and even showed him artwork displayed 
there.
    You told Mr. Tierney that you did not have control over any 
bonuses so you could not retaliate. Mr. Yarmuth indicated that 
you could give bonuses. You said you were pleased to know that. 
But I want to include in the record a memo from the White House 
on March 29, 2002. It says, ``To clarify, the political 
appointees are eligible for performance based awards, and I ask 
you personally to review any awards proposed for political 
appointees.`` So you did not know the statute but you did, 
presumably, get this memo. So it seems to me that you remember 
things selectively.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0149.016
    
    Ms. Doan. Mr. Chairman, there is a difference between a 
performance based bonus, a Spot award, an individual award, a 
group award, and an organization award. I believe Congressman 
Yarmuth actually talked about Spot awards in his dialog. I 
think we would have to check the record, but that was my 
understanding. He was talking about Spot awards.
    Chairman Waxman. Well, the testimony before the Office of 
Special Counsel is, they will not get any of these promotions, 
they will not get any of these bonuses. Well, you knew you had 
some control over some of them and those were the bonuses that 
it appears you were not going to give them.
    Ms. Doan. I think what we talked about was one or two. 
There is a whole lot of stuff going on. I would like to mention 
one other thing, though, Congressman. And that is that in our 
hearing on the 28th, I believe a lot of the dialog and the 
discussion centered around the presentation itself and that was 
what I remembered. Congressman Braley actually was the person 
who was asking me those questions. And so I think we would need 
to look at which part of that we were talking about.
    Chairman Waxman. My memory is you looked a little guilty 
and said I just am embarrassed but I cannot remember any of 
these things. That is my memory. Mr. Shays, it is your time.
    Mr. Shays. I think my collegue has to leave and would like 
to yield time. Is that true?
    Mr. Jordan. Thank you, Mr. Chairman. I yield time to 
Ranking Member Davis.
    Mr. Davis of Virginia. Let me note the memorandum that you 
were supposed to get was a March 29th, as Mr. Waxman accurately 
stated, 2002 memo. You were not in the administration March 29, 
2002, were you?
    Ms. Doan. No, I was not.
    Mr. Davis of Virginia. In fact, there were literally 
hundreds, if not thousands, of memorandums that predate your 
coming there. Are you familiar with every one of them?
    Ms. Doan. No, but I have to say I do know that there are 
memos that are out there about Presidential appointees and 
their different types of bonuses. And it is important to 
distinguish the different types of bonuses when we are having 
these discussions.
    Mr. Davis of Virginia. Instead of focusing on one sentence 
taken in a context that is disputable over 9 hours of 
testimony, I am going to just ask you to restate again under 
oath for the record, did you retaliate against anybody in terms 
of withholding bonuses?
    Ms. Doan. I did not.
    Mr. Davis of Virginia. So that never happened?
    Ms. Doan. No, it did not.
    Mr. Davis of Virginia. So why are we here. I am going to 
address the OSC report which has been construed as objective 
and nonbiased and everything else. The OSC report, the Office 
of Special Counsel report fails to mention your testimony that 
you were distracted by other pressing events which could 
account for not remembering the briefing or alleged comment. It 
also does not note that you were preoccupied with response to 
documents coming from this committee due to OMB the afternoon 
of January 26th. Now they also wrongly state you disparaged all 
employees interviewed by this committee. Is that correct?
    Ms. Doan. That is not correct.
    Mr. Davis of Virginia. You did not wrongly disparage all 
employees, did you, that testified that you had said something?
    Ms. Doan. I did not.
    Mr. Davis of Virginia. In fact, as I read the record, you 
praised the New England regional administrator, who was one of 
those interviewed by the committee. You testified, as I 
understand it, that he was one of the highest performance 
evaluations in the agency, and you stated that affirmatively. 
Is that correct?
    Ms. Doan. That is true.
    Mr. Davis of Virginia. So you did not disparage him.
    Ms. Doan. No.
    Mr. Davis of Virginia. You did not threaten him, did you?
    Ms. Doan. No.
    Mr. Davis of Virginia. They failed to address the 
mitigating fact that Hatch Act concerns are less among a group 
of political appointees. They never mentioned that, did they?
    Ms. Doan. No, they did not.
    Mr. Davis of Virginia. The report glosses over the fact 
that each of the employees that attended the briefing was a 
Presidential appointee rather than a career civil servant. So 
the core concerns of the Hatch Act, which were that 
administrations maybe come in and try to intimidate Federal 
employees into political activities, really for political 
appointees it is a different level, is my understanding. You do 
not need to say anything.
    My judgment on this report is that as an independent 
nonpartisan Federal agency, the OSC officials have an 
obligation to conduct themselves professionally. And if you 
look, the preliminary report was even worse than the other 
report. There was a tone throughout that they were out to hang 
you. That is my opinion.
    The report wrongly questions your credibility that you were 
not interested in the details of specific elections by imputing 
such an interest because of your political contributions. That 
was shocking to me. First of all, it is not unknown for cabinet 
appointees and high level appointees to be not only members of 
the President's political party but oftentimes contributors or 
active workers. That is more or less the standard, not just 
this administration but with previous administrations as well.
    I think they wrongly jumped to the conclusion that 
contributing money to political candidates equates to an 
interest in polls and esoteric topics such as micro-targeting. 
We got to that before. You have an interest philosophically in 
the party and being able to enhance it, and that goes back to 
the e-mail that was introduced into the record by Mr. Cummings 
earlier. But that does not equate to an interest in polls and 
micro-targeting. Have you ever shown a great interest in that?
    Ms. Doan. No. Just because you buy a ticket to the baseball 
game does not mean you are a professional ballplayer. Just 
because I contribute to the Party does not automatically make 
me a politician or a politico.
    Mr. Davis of Virginia. The report spends more than half a 
page on what I consider, this is on footnote 8, an irrelevant 
and disparaging footnote that does not change your underlying 
testimony that you simply do not remember making the comment. I 
do not understand why they unnecessarily published information 
about your comments about former GSA employees and outed those 
employees. Do you have any idea why they did that?
    Ms. Doan. I do not. It is so very wrong because these 
people do not deserve to have their names bandied about in 
public, to have their performance ratings evaluated in public. 
It is just very wrong. It is hurtful to me that I even in any 
way speculated that allowed this to happen.
    Mr. Davis of Virginia. You regret having even speculated.
    Ms. Doan. Deeply. And I actually, like the Congressman who 
said that I did not show contriteness, I feel terrible about 
this. I apologize to my employees. This is horrible. Horrible. 
I just want their names not to be bandied about anymore.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Mr. Shays.
    Mr. Shays. Thank you. Congressman Sarbanes was critical of 
your lack of contrition and humility. In fact, I think he said 
he had never seen a witness show so little contrition and 
humility. Coming from a Member of Congress, we are not quite 
known for our showing contrition and humility. That was one 
mouthful. Congress plays by its own rules. We exempt ourselves 
from laws we impose on the rest of the Nation, the general 
public and the executive branch. In fact, some Members get in 
trouble when they leave Congress and go to the executive branch 
because they still play by the same rules and find out they 
cannot. The public cannot FOIA my documents. My e-mails are not 
going to be public. So I do not think Members of Congress 
should be beating our chests and talking about the shame of 
other departments when we play by totally different rules.
    The Special Counsel document is a charge by a prosecutor. 
He is a Special Counsel, correct, it is a charge, is it not?
    Ms. Doan. Yes.
    Mr. Shays. It is somewhat like an indictment.
    Ms. Doan. Yes.
    Mr. Shays. And my Democratic colleagues continually lecture 
on when someone takes the fifth I think they are guilty, and 
when someone is charged I sometimes say, you know, I think they 
may be guilty. And they say no, you are innocent until proven 
guilty. In your case, before this committee you are guilty 
until proven innocent. That is what we are seeing. And I am 
seeing it on the other side of the aisle from people who 
continually lecture me about you are innocent until proven 
guilty.
    Now there are two things that I think happened that should 
not have happened. A meeting should not have happened. I 
thought it was January 2006 and that somehow you had been 
involved in helping someone in the last campaign. I find out 
this was January 26, 2007. And the second thing that should not 
have happened in my judgment is that the comment should not 
have been made, ``how can we help our candidates?'' You are not 
sure if you made this. You may have made some statement like 
that. You may have given that impression. Who knows right now 
what that is. So those two things bother me.
    Frankly, I would have thought that you could have been 
reprimanded. You could have been told that this is not what you 
do. I have things that I do in my office and sometimes my staff 
say, boss, if you do this you are going to be breaking a law. 
And I say we better not do it. And they stop it. They are 
entitled to shut down my office any time they think we are 
doing something wrong. But in 20 years, I have not suggested 
everything that should be right. Once in a while I have to be 
corrected. So it seems to me the appropriate thing for dealing 
with you should have been simply to say you know what, you made 
a mistake, it should not happen, do not let it happen again. 
And you know what, knowing your character and what I have seen, 
you would have said, thank you, it will not happen again, and 
yes, we will check with the ethics before we do anything 
because this is not like the businesses that I used to run.
    Now, one Democrat said that when we combine everything it 
looks bad for you. I would change that. When they twist 
everything. And I mean no disrespect to the chairman, but the 
chairman said to you that you were threatening your employees 
and saying they will not get a bonus. You never said that. You 
never, ever said that. What you did say was in explanation to 
why you thought someone who got a rating of three would be 
unhappy because they would not get a bonus. That is what you 
said. That is what the record needs to say. You never 
threatened your employees. It was an explanation of why some 
employees may not get it. So I want to know, who have you 
retaliated against?
    Ms. Doan. No one.
    Mr. Shays. I would like to know what candidates have you 
helped as a result of this January 2007 meeting?
    Ms. Doan. None.
    Mr. Shays. So no employee was retaliated against. No 
candidates were helped as a result of this meeting. And at one 
time you were being chastised because you had a friend who you 
would have like to have a contract, it was for $20,000. Did 
that friend get the contract?
    Ms. Doan. No.
    Mr. Shays. So I have a very difficult time understanding 
why we have spent so much time. I do not disparage the 
committee for saying let us look into it. But once you looked 
into it, my God, it seems to me we could have done some more 
important stuff.
    Ms. Doan. Congressman, it does seem to me that what happens 
is they are trying to take that slide or two that was in the 
presentation and they are trying to say that something happened 
with some of those guys. And that is just not how GSA works. 
Our priorities are determined by our customers.
    Mr. Shays. Let me just say something to you. You have 
already been put on the record as saying that. I just wish that 
meeting never happened. And you wish it never happened. Had it 
not happened, we would have been a lot better off.
    Mr. Davis of Virginia. Why not ask her if she wishes it 
never happened.
    Mr. Shays. Well do you wish the meeting never happened?
    Ms. Doan. After the amount of time we have spent on it, 
clearly, clearly.
    Mr. Shays. Of course. But I do not think you need to rip 
your clothes and cry and say I have sinned, I have sinned, I 
have sinned. I just want to thank you for your service. I hope 
it does not discourage other people like you to get into this. 
And I will say this to you, and this is my own view, but I find 
it when an African-American happens to be a Republican somehow 
she is treated differently by Congress, unfairly so.
    Chairman Waxman. The gentleman's time has expired. The 
gentlelady from Washington, DC, for 1 minute.
    Ms. Norton. Mr. Chairman, I just wanted to clarify because 
I think this is just an error that was made as a matter of law. 
The posture before us was, if the analogy is to be made, more 
in the nature of an indictment. That is not the word that can 
be put when there have been findings and conclusions by an 
independent body. The most that can be said is maybe you are on 
appeal. But you are not even on appeal because all the 
President can do is to decide what, if any, punishment. If you 
were on appeal, he could turn around what had happened.
    So this was not an indictment. And it is very important 
that the record show what we had here--an impartial decision by 
an impartial body. Maybe you disagree with it, but there is no 
way in which the Member who thought this was an indictment with 
something yet to be proved. As a matter of law, it is not an 
indictment, and I am a great admirer of the gentleman. But just 
as a matter of keeping our terms straight, because if this were 
an indictment, which is where we were in the last session 
waiting or the Special Counsel, I could agree with you. But the 
Special Counsel has spoken. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you. The gentlelady's time is up. 
Mr. Braley for 5 minutes.
    Mr. Braley. Ms. Doan, I got the distinct impression from 
one of the comments that Mr. Mica addressed to you that you had 
an opportunity to meet with the Republican Members of the 
committee before you testified today. Is that true?
    Ms. Doan. I offered to meet with all of the members of the 
committee, whether you were Democrat or Republican, before that 
last meeting and none of the Democratic folks chose to take me 
up on the offer apparently.
    Mr. Braley. No. I am talking about your testimony here 
today. Did you meet with Republican Members of the committee in 
anticipation of your testimony here today?
    Ms. Doan. Yes, I met with Congressman Davis.
    Mr. Braley. Just Congressman Davis?
    Ms. Doan. No, there were a few other Congressmen.
    Mr. Davis of Virginia. I can answer that, Mr. Braley. We 
called her up and wanted to see her ahead of time before she 
came up here.
    Mr. Braley. I just wanted to clarify that for the record.
    Mr. Davis of Virginia. Absolutely. We do this routinely 
with witnesses, by the way.
    Mr. Braley. I never got the invitation to meet with you 
before the last hearing. So that is why I was just curious.
    Ms. Doan. I could meet with you tomorrow any time you want, 
Congressman Braley. I would love to sit down with you and talk 
with you about what GSA is doing.
    Mr. Braley. OK. Let us talk about Mr. Burton's comment. He 
made the remark that this hearing was very amusing to him. Do 
you find this hearing very amusing?
    Ms. Doan. I am sorry. Did you say abusing?
    Mr. Braley. Very amusing.
    Ms. Doan. Oh, I am sorry. No. This is very serious. This is 
my career, this is my reputation that is being impugned here. 
This is people alleging that I am maltreating employees and 
doing all sorts of shenanigans. This is not true. Yes, this is 
very serious.
    Mr. Braley. Very serious. And when Mr. Davis asked a 
rhetorical question why are we here, let me answer you why I am 
here. The U.S. Office of Special Counsel is an independent 
Federal agency appointed by President Bush to investigate 
alleged Hatch Act violations. And last month, the Office of 
Special Counsel concluded that you broke the law during this 
January 26th meeting at GSA Headquarters that we have been 
talking about.
    In its conclusion that was forwarded on to President Bush, 
this is what the Office of Special Counsel wrote: ``Despite 
engaging in the most pernicious of political activity 
prohibited by the Hatch Act, Administrator Doan has shown no 
remorse and lacks an appreciation for the seriousness of her 
violation.''
    Ms. Doan. This is an example of why it is flawed, though.
    Mr. Braley. One of the other points that I want to ask you 
about is you have denied that you violated the Hatch Act during 
that meeting.
    Ms. Doan. I have said I do not believe I violated the Hatch 
Act during that meeting because I cannot remember exactly what 
I said but I do not believe that I violated it. I cannot 
remember which Congressman asked me.
    Mr. Braley. In your counsel's letter to the Office of 
Special Counsel, your own attorney suggested that the real 
violation of the Hatch Act occurred when Scott Jennings made 
the Power Point presentation. Were you aware of that?
    Ms. Doan. I am not Monday morning quarterbacking, as I have 
told you, Congressman Braley.
    Mr. Braley. Let me read to you what he wrote to the Office 
of Special Counsel: ``If anything, it was that briefing which 
OSC concedes Administrator Doan had no role in preparing or 
arranging that may have violated the Hatch Act. However, rather 
than focusing on the presentation, which on its face raises 
Hatch Act concerns, the OSC has aimed its ire at a single 
comment, the phrasing of which is disputed even among those who 
remember it being made at all.''
    So when you talk about this ongoing investigation for 
potential Hatch Act violations, do you agree that the 
presentation of that Power Point slide to your employees on 
Federal time was a violation of the Hatch Act? And the record 
should reflect that the witness has been conferring with 
counsel and has just been handed a document.
    Ms. Doan. Thank you for making that clear, Congressman. The 
letter from my legal counsel was the response. I believe if you 
review it in its entirety, it does speak for itself. What I 
will also tell you is that I am not, I have said it before, I 
am not a Hatch Act expert. The Office of Special Counsel has 
still said it has not made its determination. Congressman 
Braley, I do not know why you are trying to ask me to opine on 
this, especially given that opining has gotten me to this point 
here.
    Mr. Braley. Let me tell you why it is important. You have 
repeatedly stated that certain things occurred before you 
received Hatch Act briefings and Hatch Act trainings. But there 
is no dispute that between the date you took over your job and 
the date of the Scott Jennings briefing we have been talking 
about you did receive Hatch Act training and Hatch Act 
briefings; is that not true?
    Ms. Doan. I did. However, I did not know what the content 
of the meeting or the presentation was going to be.
    Mr. Braley. When you testified just now that you did not do 
anything to help your candidates, I want to go back to these 
slides that we talked about last time where there were 10 
targeted Democratic House races and another slide that says 
2008 GOP Defense and it list, the people who are Republican 
Members of Congress who could be targeted in the 2008 election. 
So when you as the head of the agency suggest how can we help 
our candidates and after they have seen this slide, can you 
understand how reasonable people could conclude that those 
political appointees may be feeling pressure to do something to 
help these candidates?
    Ms. Doan. No. I am not engaged in partisan political 
activities, and I have not directed anyone to do anything.
    Chairman Waxman. The gentleman's time has expired. I want 
to make some closing comments, then Mr. Davis will be 
recognized to do the same thing. I want to just give you my 
observation, Ms. Doan.
    The committee has now investigated multiple allegations 
against you in your first year as GSA administration, including 
the following: That you violated Federal contracting rules by 
awarding a no-bid contract to your close personal friend; that 
you intervened in contract negotiations on behalf of Sun 
Microsystems, potentially costing taxpayers millions of 
dollars; that you violated the Hatch Act by encouraging Federal 
employees to use Government resources to help Republican 
congressional candidates; that you made false and misleading 
statements to this committee, to Senator Charles Grassley, to 
the Office of Special Counsel, and to the press; that you 
disparaged the credibility and professional credentials of 
colleagues in retaliation for their cooperation with 
investigations into your actions. This seems to be a pattern. 
You refuse to take any personal responsibility and you attack 
others for doing their jobs.
    When the GSA Inspector General concluded that you 
improperly awarded the no-bid contract to your friend, you said 
he was out to get you. You called him a terrorist and you 
threatened to cutoff his funding.
    When this committee investigated your intervention on 
behalf of Sun, you claimed our motives were partisan.
    When your colleagues at GSA testified that you asked them 
to help Republican candidates, you claimed they were poor 
performers with an axe to grind.
    And now that the Special Counsel has concluded that you 
violated the Hatch Act, you have accused them of bias.
    What I have not seen is any recognition that your own 
conduct might be the reason you are here today. And after 
reviewing this record, I see little evidence that you 
acknowledge your responsibility or have any remorse for your 
actions. I have no confidence that you learned anything from 
the experience of this 1 year time at GSA.
    I have to say, this is my opinion, it is unusual for me to 
ever call for the resignation of a Federal official, but in 
your case I do not see any other course of action that will 
protect the interests of your agency and the Federal taxpayer. 
No one can be an effective leader who has abused the trust of 
her employees and threatened to deny promotions and bonuses to 
employees for telling the truth. And no one can be an effective 
leader who has lost the public's confidence, politicizing the 
agency, and violating the Federal Hatch Act. Yet that is 
exactly what you have done.
    I give you my opinion, just as others have given you their 
opinion. It will be up to the President of the United States 
who appointed you to decide what to do with the recommendation 
by this Office of Special Counsel that recommends the President 
remove you from this office. I would urge he remove you from 
service.
    Mr. Davis of Virginia. Mr. Chairman, the Office of Special 
Counsel simply makes a complaint, they are allowed to respond 
to it, and the President makes his decision. You are trying to 
interject this committee and this Congress in what is an 
administrative review, which is your right as the chairman to 
do this. But I draw completely different conclusions, Mr. 
Waxman.
    First of all, Ms. Doan, let me just say thank you on the 
networks contract. That is out there, that will save the 
Federal Government literally billions of dollars over the next 
decade. I think this is the most proactive and far-reaching 
communications contract that we have ever had. And I 
particularly appreciate your intervention with the Treasury 
trying to go their own way on this and trying to keep all the 
Government interconnected. This is one of the things that we 
have been preaching in this committee for years. It would not 
have happened without your active intervention. Previous 
holders of your position would sit back there in the 
bureaucracy and get picked to death by other agencies.
    I want to congratulate you for the Federal acquisition 
system, the merging of the FTS and the Federal supply system. 
This again will save the taxpayers billions of dollars over the 
next few years. We can now put technology, goods, services all 
under one contract instead of having to go separate vehicles. 
This will allow us to get the best value for the taxpayer 
dollars.
    Ultimately, this committee should be concerned about making 
sure that when taxpayers pay their dollars that they are 
getting the best value for those dollars. This committee is 
basically the intersection of three committees. One was the old 
Government Operations Committee, which was melded together from 
a number of different committees back in 1950 that used to 
oversee Federal expenditures and tried to make sure that 
Government dollars were being spent correctly. I do not think 
this hearing and these hearings have gone anywhere in terms of 
furthering that purpose. Then you had the old Post Office and 
Civil Service Committee and the District of Columbia Committee 
that were merged together in 1995.
    I know what politics is. I know there is a lot of pent up 
frustration on the other side about the inability of Republican 
Congresses to look at Republican administrations. But I think 
this is a bridge too far. I think they have beaten a dead 
horse. They have taken a few facts, cobbled them together, and 
I think you have held up well today in the testimony putting 
them in an appropriate perspective. It is not always pretty. 
But 9 hours of testimony under oath by a very accusing 
prosecutor, in this case the Office of Special Counsel, you are 
going to get statements sometimes that in retrospect you might 
have answered a little bit differently.
    But I do not find any problem here with any kind of 
perjury, any kind of bullying witnesses or retaliation. In 
fact, the evidence here I think suggests there was no 
retaliation. No one can show any retaliation. They can show 
some statements that might have said you were going to 
retaliate, but no retaliation. And by the way, no overt 
political activity from your agency that furthered Republican 
candidacies. No actions on that. Just a statement by others, 
they did not, by the way, interview everybody that was there, 
and conflicting statements among the people they did interview 
over exactly what you did say. Some said you invoked GSA's 
name. Others said you did not do that, you just said how can we 
help the candidates. And as you look at this, these were all in 
response to leading questions.
    But I guess most importantly what we have to ask and what 
the American people have to ask is why are we this week with 
everything else going on holding this hearing at this time. We 
have serious immigration issues and we ought to be looking at 
how we can close our borders, why we have gasoline shortages, 
how children in foster care systems end up continuing to be 
abused, why does it cost so much to adopt, why is it hard for 
American businesses to hire qualified students from other 
countries, how can we improve the security clearance backlog 
that is costing us hundreds of millions of dollars in the 
process breakdowns, why have we not examined first responder 
interoperability closer, what is the plan to ensure Census 
accuracy, what oversight errors we have seen in military pay, 
are they better off, a number of other issues that in my 
judgment we would deem much more important.
    Ultimately the American public will judge. It is 
interesting to note that the Los Angeles Times yesterday for 
the first time published a poll giving this Congress ratings 
and, because of the over abuses that we are seeing now, finding 
out that the Congress is lower than the President and the 
lowest that it has been in years. That in fact the new 
Congress, with the number of other abuses going on, and we 
walked through this last night on the floor of the House over 
earmarks and the like, is no different from before and in some 
ways just has a vengeance for partisanship. This hearing I 
think is evidence of that.
    I have a very high regard for my chairman. I just want to 
say we have worked a lot of tough issues together. We happen to 
disagree on GSA and your role in this. I look forward to 
working with him on a number of other issues. But I think this 
is not an accuser, this is an abuser in this case and they have 
overplayed their hand. I wish you the best of luck.
    Chairman Waxman. Thank you. That concludes our hearing. We 
thank you very much for being here.
    [Whereupon, at 1:25 p.m., the hearing was adjourned.]

                                 <all>

</pre></body></html>
